No. 19In the

Supreme Court of the United States
intermessage communications, inc.,
Petitioner,
v.
ameritech mobile communications, inc.
and cincinnati smsa limited partnership,
Respondents.
On Petition for a Writ of Certiorari
to the Supreme Court of Ohio

PETITION FOR A WRIT OF CERTIORARI
Thomas R. Theado
Gary, Naegele & Theado, LLC
401 Broadway Avenue, Unit 104
Lorain, Ohio 44052
(440) 244-4809
Carla M. Tricarichi
Tricarichi & Carnes, L.L.C.
3601 Green Road,
Beachwood, Ohio 44122
(216) 378-9550

Dennis R. Rose
Counsel of Record
Rob Remington
Hahn Loeser & Parks LLP
200 Public Square, Suite 2800
Cleveland, OH 44114
(216) 621-0150
drrose@hahnlaw.com
Randy J. Hart
Randy J. Hart, LLP
3601 South Green Road,
Suite 309
Beachwood, Ohio 44122
(216) 978-9150

Counsel for Petitioner
288668

i
question presented
Whether the Ohio Supreme Court has violated
Petitioners’ due process rights by interpreting Ohio law in
a way that prevents individuals who have been harmed by
conduct found by that Court to be wrongful/illegal, from
having any avenue to pursue any remedy for damages
caused by that wrongful conduct.

ii
PARTIES TO THE PROCEEDINGS
The Petitioner is Intermessage Communications, Inc.
The Respondents are Ameritech Mobile Communications,
Inc. and Cincinnati SMSA Limited Partnership.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6 Petitioner
Intermessage Communications, Inc. states that it has no
parent corporation and that no publicly held company owns
10% or more of its stock. Intermessage Communications,
Inc. likewise has no subsidiaries and is not the parent of
any other corporation or entity.

iv
RELATED CASES
1. Satterfield v. Ameritech Mobile Comm., Inc.
Cuyahoga County Court of Common Pleas, Docket Case
No. 03-CV-517318, Judgment Entry, February 19, 2016.
2. Satterfield v. Ameritech Mobile Comm. Inc., Ohio
Eighth District Court of Appeals, Docket Case No. 16CA-104211, Opinion and Order, March 16, 2017.
3. Satterfield v. Ameritech Mobile Comm., Inc.,
the Ohio Supreme Court, Docket Case No. 20017-0684,
Opinion and Order, December 18, 2018.
4. Satterfield v. Ameritech Mobile Comm., Inc., the
Ohio Supreme Court, Docket Case No. 20017-0684, Denial
of Motion for Reconsideration, February 20, 2019.

v
TABLE OF CONTENTS
Page
Question presented . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY AND REGULATORY
	PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
REASONS FOR GRANTING THE PETITION . . . . . 9
1.	The Underlying Decision Denies Due
	Process to Millions of Ohioans . . . . . . . . . . . . . . 10
2.	Ohioans Have No Remedy Even When
Wrongdoing is Found . . . . . . . . . . . . . . . . . . . . . . 11

vi
Table of Contents
Page
3.	Elimination of Any Remedy for Wrongful
	Conduct is Unconstitutional  . . . . . . . . . . . . . . . . 14
4.	The PUCO Can Never Implement the
	Supreme Court’s Decision . . . . . . . . . . . . . . . . . . 16
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

vii
TABLE OF APPENDICES
Page
APPE N DI X A — OPI N IO N O F THE
SUPREME COURT OF OHIO, DATED
	DECEMBER 18, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPE N DI X B — J UDGME N TS A N D
JOURNAL ENTRIES OF THE COURT
O F APPEALS O F OHIO , EIGHTH
DISTRICT AND THE COURT OF COMMON
	PLEAS, CUYAHOGA COUNTY, OHIO . . . . . . . . 13a
APPE N DI X C — OPI N ION O F THE
SUPREME COURT OF OHIO, DATED
FEBRUARY 20, 2019  . . . . . . . . . . . . . . . . . . . . . . . . 74a
APPENDIX D — R.C. § 4905.61 TREBLE
	DAMAGES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 75a
APPENDIX E — R.C. § 4905.26 WRITTEN
	COMPLAINTS  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 76a
APPENDIX F — FED CIV. PROC. R. 23 . . . . . . . . . 78a

viii
TABLE OF CITED AUTHORITIES
Page
CASES
Arbino v. Johnson & Johnson,
116 Ohio St. 3d 468, 880 N.E.2d 420 (2007) . . . .  14, 15
Barrett v. Holmes,
102 U.S. 651, 26 L. Ed. 291 (1880) . . . . . . . . . . . . . . . 14
Cincinnati SMSA Limited Partnership aka
Ameritech v. Public Util. Comm. of Ohio,
98 Ohio St. 3d 282, 781 N.E.2d 1021 (2002) . . . . . . 5, 7
Gaines v. Preterm–Cleveland, Inc.,
33 Ohio St. 3d 54, 514 N.E.2d 709 (1987) . . . . . . . . . 15
Groch v. Gen. Motors Corp.,
117 Ohio St. 3d 192, 883 N.E.2d 377 (2008) . . . . . . . 15
Hardy v. VerMeulen,
32 Ohio St. 3d 45, 512 N.E.2d 626 (1987) . . . . . . . . . 15
Kazmeier Supermarket, Inc. v.
Toledo Edison Co.,
61 Ohio St. 3d 147, 573 N.E.2d 658 (1991) . . . . . .13, 14
Lujan v. G&G Firesprinklers, Inc.,
532 U.S. 189, 121 S. Ct. 1446 (2001)  . . . . . . . . . . . . . 14
New Bremen v. Pub. Util. Comm.,
103 Ohio St. 23, 132 N.E.162 (1921) . . . . . . . . . . passim

ix
Cited Authorities
Page
New Par v. PUCO,
98 Ohio St. 3d 277, 781 N.E.2d 1008 (2002) . . . . . . 7, 8
Ohio Edison Company v. PUCO,
56 Ohio St. 2d 419, 384 N.E.2d 283 (1978) . . . . . . . . . 3
Ruther v. Kaiser,
134 Ohio St. 3d 408, 2012 – Ohio – 4686 . . . . . . . . . . 15
Satterfield v. Ameritech Mobile Comm., Inc.,
155 Ohio St. 3d 463, 121 N.E.2d 144 (2018) 1, 9, 10, 17
State ex rel. Cleveland Elec. Illuminating. Co. v.
Cuyahoga Cty. Court of Common Pleas,
88 Ohio St. 3d 447, 727 N.E.2d 900 (2000) . . 2, 8, 9, 16
Westside Cellular, Inc. v. PUCO,
98 Ohio St. 3d 165, 781 N.E.2d 199 (2002) . . . . . . . 5, 7
CONSTITUTION AND STATUTES
U.S. Constit., Amend. V . . . . . . . . . . . . . . . . . . . . . 2, 10, 11
U.S. Constit., Amend. XIV, Section 1  . . . . . . . . . 2, 10, 11
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Ohio Rev. Code § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

x
Cited Authorities
Page
Ohio Rev. Code § 1345.01 . . . . . . . . . . . . . . . . . . . . . . . . . 15
Ohio Rev. Code § 4905.03  . . . . . . . . . . . . . . . . . . . . . . 8, 16
Ohio Rev. Code § 4905.26  . . . . . . . . . . . . . . . . . . . . passim
Ohio Rev. Code § 4905.61 . . . . . . . . . . . . . . . . . . . . . passim
Ohio Rev. Code § 4927.02 . . . . . . . . . . . . . . . . . . . . . . . 8, 12

1
OPINIONS BELOW
The original opinion of the Ohio Supreme Court (App.
A) was issued on December 18, 2018 in Ohio Supreme
Court Case No. 20017-0684 and is captioned as Satterfield
v. Ameritech Mobile Comm., Inc., 155 Ohio St.3d 463, 121
N.E.2d 144 (2018). The opinion of the Ohio Supreme Court
on reconsideration (App. C) was issued on February 20,
2019 in that same case and bearing that same caption
and Ohio Supreme Court case number. Satterfield v.
Ameritech Mobile Comm., Inc., 154 Ohio St.3d 1512, 116
N.E.3d 1290 (Table).
The opinion of the Ohio Eighth District Court of
Appeals (App. C) was issued on March 16, 2017 in Court
of Appeals Case No. 16-CA-104211 and is captioned as
Satterfield v. Ameritech Mobile Comm. Inc., 2017-Ohio928, 86 N.E.3d 830 (Cuyahoga 2017).
The decision of the Cuyahoga County Court of
Common Pleas (App. B) was issued on February 19, 2016
in the case captioned as Satterfield v. Ameritech Mobile
Comm., Inc., Cuyahoga County Court of Common Pleas,
Case No. 03-CV-517318 and is not reported.
JURISDICTION
The judgment of the Ohio Supreme Court was entered
on December 18, 2018. A Motion for Reconsideration was
denied on February 20, 2019. App. C. On May 16, 2019
Justice Sotomayor extended the time within which to file
a petition for writ of certiorari to and including July 22,
2019. The jurisdiction of this Court is invoked pursuant
to 28 U.S.C. § 1254(1).

2
STATUTORY AND REGULATORY
PROVISIONS INVOLVED
T he Fi f th A mendment to the Unit ed Stat es
Constitution provides in pertinent part that: “No person
shall . . . be deprived of life, liberty, or property, without
due process of law; nor shall private property be taken
for public use, without just compensation.” U.S. Constit.,
Amend. V.
The Fourteenth Amendment to the United States
Constitution provides in pertinent part that: “No State
shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States;
nor shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny any person
within its jurisdiction the equal protection of the laws.”
U.S. Constit., Amend. XIV, Section 1.
The pertinent provisions of Ohio law involved are Ohio
Rev. Code §§ 4905.26, 4905.61 and Ohio Supreme Court
precedent establishing the authority of the Public Utilities
Commission of Ohio (“PUCO”).
In Ohio, the PUCO “has exclusive jurisdiction over
various matters involving public utilities, such as rates and
charges, classifications, and service, effectively denying
to all Ohio courts (except this court) any jurisdiction over
such matters.” State ex rel. Cleveland Elec. Illuminating.
Co. v. Cuyahoga Cty. Court of Common Pleas, 88 Ohio
St.3d 447, 450, 727 N.E.2d 900 (2000).
Once a finding of wrongdoing is made by the PUCO an
action under Ohio Rev. Code § 4905.26 may be commenced

3
to recover damages. The State of Ohio had mandated
that this is the exclusive means to seek damages from a
PUCO finding of violation. See, Ohio Edison Company v.
PUCO, 56 Ohio St.2d 419, 421, 384 N.E.2d 283, 284 (1978)
(“general finding of [the utility’s] unlawful practice would
enable any of the customers billed at the higher rate to
bring an action for damages in the appropriate Court
of Common Pleas. . . . [which] “lays the groundwork for
recovery of treble damages under [Ohio Rev. Code §]
4905.61.”).
The State of Ohio had also mandated previously that
the PUCO has no ability to determine whether or whose
“rights were violated.” New Bremen v. Pub. Util. Comm.,
103 Ohio St. 23, 30, 132 N.E.162 (1921).
The relevant statutes provide:
Ohio Rev. Code § 4905.26. Upon complaint in
writing against any public utility by any person,
firm, or corporation, or upon the initiative or
complaint of the public utilities commission, that
any rate, fare, charge, toll, rental, schedule,
classification, or service, or any joint rate, fare,
charge, toll, rental, schedule, classification,
or service rendered, charged, demanded,
exacted, or proposed to be rendered, charged,
demanded, or exacted, is in any respect unjust,
unreasonable, unjustly discriminatory, unjustly
preferential, or in violation of law, or that any
regulation, measurement, or practice affecting
or relating to any service furnished by the
public utility, or in connection with such service,
is, or will be, in any respect unreasonable,

4
unjust, insufficient, unjustly discriminatory, or
unjustly preferential, or that any service is, or
will be, inadequate or cannot be obtained . . . .
***
The parties to the complaint shall be entitled to
be heard, represented by counsel, and to have
process to enforce the attendance of witnesses.
Ohio Rev. Code § 4905.26
Ohio Rev. Code § 4905.61 If any public utility or
railroad does, or causes to be done, any act or
thing prohibited by Chapters 4901, 4903, 4905,
4907, 4909, 4921, 4923, and 4925 of the Revised
Code, or declared to be unlawful, or omits to
do any act or thing required by such chapters,
or by order of the public utilities commission,
such public utility is liable to the person, firm,
or corporation injured thereby in treble the
amount of damages sustained in consequence
of such violation, failure, or omission.
Ohio Rev. Code § 4905.61 (emphasis added.)
STATEMENT
In 1993, an Ohio company known as Westside Cellular,
Inc. dba Cellnet (“Cellnet”) sought to enter the cellular
telephone marketplace as a reseller. To achieve that
objective, Cellnet sought service from Ameritech pursuant
to regulations implemented by the PUCO. Ameritech
refused to provide service on that basis. Cellnet then

5
brought a complaint at the PUCO pursuant to Ohio
Rev. Code § 4905.26 where it alleged, inter alia, that (1)
Ameritech had failed to separate its wholesale operations
from its retail operations; (2) Ameritech had failed to
maintain separate accounting for its wholesale operations
and retail operations; (3) Ameritech had failed to comply
with the requirement that its wholesale and retail
operations have “no involvement whatsoever” in each
other’s business; and (4) that Ameritech was providing
such service to its own affiliated retail operations for
free, which the Ohio Supreme Court characterized as a
“zero rate”. Cincinnati SMSA Limited Partnership aka
Ameritech v. Public Util. Comm. of Ohio, 98 Ohio St.3d
282, 283, 781 N.E.2d 1021 (2002). Of import here, these
allegations relate solely to Ameritech’s conduct in the
market generally.
After a three-week trial, the PUCO issued an opinion
in which it found that Ameritech had violated Ohio law.
The PUCO, after hearing evidence, ruled that between
19931 and 1998:
• “Ameritech Mobile has failed to maintain its
records in a manner which would satisfy the
objectives and intent of the regulatory framework
established in both the Commission’s 84-944 and
89-563 Orders.” Cellnet Order at 37. Pl.App. at
143.
1. The Commission’s ruling in the Cellnet case stated that
Ameritech’s wrongful conduct began in 1995. On appeal, the Ohio
Supreme Court reversed the PUCO and held that the wrongdoing
started in 1993. Westside Cellular, Inc. v. Pub. Util. Comm., 98 Ohio
St.3d 165, 781 N.E.2d 199 (2002).

6
• “A mer it ech Mobi le i s i n v iolat ion of t he
Commission’s order regarding the separation
of its wholesale and retail operations.” Id. at 38.
Pl.App. at 144.
• 	Based on the testimony of Ameritech executive
Alan Ferber, “the Commission conclude[d] that
Ameritech Mobile was not separating its wholesale
and retail in its normal course of business.” Id. at
38. Pl.App. at 144.
• “Ameritech Mobile’s practice of establishing
wholesale rates for nonaffiliated carriers by
first consulting with Ameritech Mobile’s retail
employees relative to the potential impact on
Ameritech Mobile’s retail business violated the
Commission’s 84-944 and 89-563 Orders.” Id. at
39. Pl.App. at 145.
• “Due to Ameritech Mobile’s failure to develop
rates for transactions between its wholesale
and retail affiliates, as well as the failure to
properly maintain its records as directed by the
Commission, Ameritech Mobile has harmed its
own defense by not even allowing the Commission
to be aware of the actual rate charged to its retail
affiliate. Ameritech Mobile wishes the Commission
to blindly accept the reasonableness of its internal
rate without first establishing that a specific rate
existed or establishing that the rate is greater
than zero. In the absence of any information to
the contrary, the Commission must assume that
Ameritech Mobile’s internal wholesale rate is
zero. This conclusion is supported by Ameritech

7
Mobile’s own inability to identify any rate, as well
as the fact that Ameritech Mobile’s own annual
report filings fail to demonstrate any revenue for
its affiliate retail arm’s [sic] purchase of service.”
Id. at 50. Pl.App. at 156.
• “[T]here was no charge between Ameritech
Mobile’s retail and Ameritech Mobile’s wholesale.”
Id. at 51. Pl.App. at 157.
The Ohio Supreme Court, in a series of opinions,
unanimously affirmed the judgment of the PUCO.
Cincinnati SMSA Limited Partnership aka Ameritech
v. Public Util. Comm. of Ohio, 98 Ohio St.3d 282, 283, 781
N.E.2d 1021 (2002); See Westside Cellular, Inc. v. PUCO,
98 Ohio St.3d 165, 168, 781 N.E.2d 199 (2002); New Par
v. PUCO, 98 Ohio St.3d 277, 279-80, 781 N.E.2d 1008
(2002). Among the Ohio Court’s holdings was a finding that
Ameritech failed to charge its affiliated retail operations
anything for service. The Ohio Supreme Court stated:
However, Ameritech’s argument is based
on a fallacy; to the extent that Ameritech’s
internal wholesale rate was set at zero, it was
so set by Ameritech, not by the commission.
The commission merely determined that
the internal wholesale rate was zero based
on examinations of Ameritech’s accounting
records (or lack thereof) and consideration of
testimony of Ameritech witnesses.
98 Ohio St.3d at 283.

8
Likewise, the Ohio Supreme Court upheld the
PUCO’s determination that Ameritech did not separate
its wholesale operations from its retail business, as it was
required to do. Id. at 282 – 83. Based on its illegal conduct,
Ameritech avoided competitive retail price pressures
thus thwarting the entire policy objectives articulated in
Ohio statutes. Those policy objectives include “[r]ely[ing]
primarily on market forces, where they exist, to maintain
reasonable service levels for telecommunications services
at reasonable rates.” Ohio Rev. Code § 4927.02.
Normal avenues for Ohio citizens to file civil complaints
are not available to customers of “public utilities” such
as Ameritech. Ohio citizens cannot bring common
law civil actions to determine wrongdoing of public
utilities and harm caused thereby. “The commission has
exclusive jurisdiction over various matters involving public
utilities, such as rates and charges, classifications, and
service, effectively denying to all Ohio courts (except this
court) any jurisdiction over such matters.” State ex rel.
Cleveland Elec. Illuminating. Co. v. Cuyahoga Cty. Court
of Common Pleas, 88 Ohio St.3d 447, 450, 727 N.E.2d 900
(2000).
The complaint provisions under Ohio Rev. Code §§
4905.26 and 4905.61 were important since utility users who
are harmed by the wrongful conduct of public utilities have
no other recourse. In addition to not being able to bring
common law claims, Ohio’s Consumer Sales Practices Act
(Ohio Rev. Code § 1345 et seq.) excludes “transactions
between persons, defined in sections 4905.03” and thus
cannot be used against a cellular telephone company such
as Ameritech since Ohio Rev. Code § 4905.03 defines the
Respondents as “public utilities”.

9
Likewise, the Ohio Supreme Court has held that
utility users cannot institute an action against a public
utility utilizing the anti-competitive provisions of Ohio’s
Antitrust act. State ex rel. Cleveland Elec. Illuminating
Co. v. Cuyahoga Cty. Court of Common Pleas, 88 Ohio
St.3d 447, 727 N.E.2d 900 (2000).
With the foregoing facts as preface, named Petitioner
– a subscriber of Ameritech that purchased service
with an Ohio area code during the period October 18,
1993, through September 8, 1995 – brought suit against
Ameritech on behalf of itself and similarly-situated
service subscribers. Their claim is based on the exact
violations which the PUCO found Ameritech committed.
Each member of the Class is “the person . . . injured
thereby” and has “damages sustained in consequence of
such violations,” for which such damages are recoverable
under Ohio Rev. Code § 4905.61.
Despite the fact that wrongdoing was found as to
the Respondent, the Ohio Supreme Court has now held
that Petitioner may not seek damages because the PUCO
has not made a determination that Petitioner has had its
rights violated. Satterfield v. Ameritech Mobile Comm.,
Inc., 155 Ohio St.3d 463, 122 N.E.3d 144 (2018). But, this
is the precise finding that the same Court had said was
outside the scope of PUCO review. New Bremen v. Pub.
Util. Comm., 103 Ohio St. 23, 30, 132 N.E.162 (1921).
REASONS FOR GRANTING THE PETITION
The PUCO and the Ohio Supreme Court have held that
Respondents have violated the law. Ohio has mandated
that in a case involving a public utility, the only avenue

10
available to seek redress for such violations is through
an action for damages in state court pursuant to Ohio
Rev. Code § 4905.61. Prior to the decision being appealed
here, this scheme was consistent with the United States
Constitution which provides, inter alia, that “No person
shall . . . be deprived of life, liberty, or property, without
due process of law.” U.S. Const. Amendment V. It was
also consistent with the 14th amendment’s provision that
“nor shall any state deprive any person of life, liberty or
property without due process of law. As explained below,
the decision of the Ohio Supreme Court at issue here has
provided that only those Ohioans whose “rights have been
found [by the Ohio Public Utilities Commission] to have
been violated” may seek to recover their damages for such
violations of Ohio law.
While at first blush this may sound “reasonable”, at
the same time the Ohio Supreme Court has let stand its
precedent that the PUCO can only determine whether
wrongful conduct has occurred, but the PUCO is expressly
prohibited from deciding whether a litigant’s “rights have
been violated.” Thus after this decision, it is impossible
for Ohioans to exercise their due process rights, because
such customers must obtain a finding from the PUCO that
their rights have been violated, while at the same time, the
PUCO is prevented from making that finding. Satterfield,
155 Ohio St.3d 463, 122 N.E.3d 144 (2018); New Bremen,
103 Ohio St. 23 (1921).
1. The Underlying Decision Denies Due Process to
Millions of Ohioans.
There are over 11 million individual citizens in the
State of Ohio pursuant to the 2010 census. Likewise, there

11
are hundreds of thousands, if not millions, of corporate
citizens. Each one of these citizens is also a consumer of
public utility service in the state. Up until the decision at
issue here, these citizens had redress at the PUCO (as
to wrongdoing) and in a trial court (to determine rights
violated). As a result of the Ohio Supreme Court’s decision,
none of those citizens may ever bring an action in the State
of Ohio to seek damages (or a determination of their rights
that were violated) for injuries where the PUCO has made
a finding of wrongdoing. Thus, the decision of the Ohio
Supreme Court deprives every Ohioan of his/her rights
to due process and are therefore violative of the Fifth and
Fourteenth Amendments of the U.S. Constitution.
The combination of the decision against Petitioner and
the Court’s previous ruling in New Bremen means that
it is now law in the state of Ohio that (1) before a person
can seek damages for injury caused by a public utility, the
person injured must first obtain a ruling from the PUCO
that its rights were violated and (2) the PUCO has no
ability to make such a finding. This leaves Petitioner with
no remedy in Ohio for conduct that has been found to be
wrongful; a result squarely at odds with the constitutional
guarantees outlined herein.
2. Ohioans Have No Remedy Even When Wrongdoing
is Found.
The statute at issue is Ohio Rev. Code § 4905.61 which
provides, in full:
If any public utility or railroad does, or
causes to be done, any act or thing prohibited
by Chapters 4901, 4903, 4905, 4907, 4909,

12
4921, 4923, and 4925 of the Revised Code, or
declared to be unlawful, or omits to do any
act or thing required by such chapters, or by
order of the public utilities commission, such
public utility is liable to the person, firm,
or corporation injured thereby in treble the
amount of damages sustained in consequence
of such violation, failure, or omission.”
Ohio Rev. Code § 4905.61 (emphasis added.)
Under this statute, a plaintiff may recover against a
public utility by showing only (1) a finding by the PUCO
that a public utility engaged in conduct prohibited by
statute and/or a PUCO order and (2) that the person
seeking the damage was injured as a result of that conduct.
Here, there has been the requisite finding of
wrongdoing. In its Cellnet Order, the PUCO held that
Ameritech had violated the Ohio statutes and PUCO
regulations which were designed to benefit the members
of the class, “Ohio citizens”. See, Ohio Rev. Code § 4927.02.
Specifically, the PUCO found, and the Ohio Supreme Court
affirmed, that in violation of Ohio law (1) Ameritech did not
separate its wholesale and retail operations; (2) Ameritech
did not maintain separate wholesale and retail accounting;
(3) Ameritech’s wholesale operations and retail operations
did not operate in compliance with the directive that they
have “no involvement whatsoever” in each other’s business
and (4) Ameritech gave its retail affiliate free service and
failed to provide that to Cellnet. Cellnet Order at 38 – 39.
In enacting the damage provisions of Ohio Rev. Code
§ 4905.61, the Ohio legislature did not focus on who the

13
parties were in a particular PUCO case, but rather on
who was injured by the violations found in a PUCO case.
The entire statute relates to damages to “the person …
injured thereby.” It is those entities which have explicit
standing under the statute. There is no requirement in
Ohio Rev. Code § 4905.61 that the PUCO also find harm.
That is the entire point of Ohio Rev. Code § 4905.61, to
allow a competent court to determine whether there was
harm. This made sense because the PUCO did not have
authority to determine harm. New Bremen, 103 Ohio St.
23, 30, (1921).
The efficacy of this scheme has been recognized by
the Ohio Supreme Court. In Kazmeier Supermarket, Inc.
v. Toledo Edison Co., 61 Ohio St.3d 147, 152, 573 N.E.2d
658 (1991) the Court with respect to Ohio Rev. Code §
4905.61, stated that:
The General Assembly has provided a specific
remedy for persons, firms or corporations who
have sustained damages due to an unlawful
act of a public utility, or where such damages
arise from the utility’s omission to do any act
or thing required by law or by the order of
the commission. [Ohio Rev. Code §] 4905.61
provides that in such instances the utility is
liable for treble damages. (Footnote omitted.)
However, this court has held that bringing a
suit for treble damages under [Ohio Rev. Code
§] 4905.61 is dependent upon a finding by the
commission that there was in fact a violation
of a specific statute, or noncompliance with a
commission order.

14
Id. at 152 (emphasis added.) Thus, not only did the Ohio
Supreme Court in Kazmaier explain the interconnected
nature of the statutory scheme, but it recognized that
“persons . . . who have sustained damages” have been
“provided a specific remedy” in Ohio Rev. Code § 4905.61
by the General Assembly. The same Court has now
eliminated that remedy.
3. Elimination of Any Remedy for Wrongful Conduct
is Unconstitutional.
The United States Supreme Court in Lujan v. G&G
Firesprinklers, Inc., 532 U.S. 189, 121 S.Ct. 1446 (2001)
stated that the relevant inquiry in looking at a due process
question is whether “the State has deprived the Claimant
of a protected property interest.” In Barrett v. Holmes,
102 U.S. 651, 26 L.Ed. 291 (1880) the Supreme Court in
looking at a similar situation where the State of Iowa
had instituted a scheme that prevented action without a
prerequisite finding that was impossible to obtain, stated
that “a right without a remedy is unknown to the law.” Id.
at 652. The Court went on to state that “the legislature
could not have intended to prevent an action after the
expiration of five years, in cases in which it was impossible
that any measures could be taken in this form of action
for the recovery within that time.”
The Ohio Supreme Court has recognized the “due
course of law” aspect of Ohio’s Section 16, Article I as the
equivalent of the due process clause of the United States
Constitution. Arbino v. Johnson & Johnson, 116 Ohio St.3d
468, 880 N.E.2d 420 (2007), ¶48.

15
The Ohio Supreme Court in analyzing whether
there is a constitutional due process right in having
a “remedy” has recognized that the due process and
remedies clauses, of the Ohio Constitution (Section 16,
Article I), provide that “every person, for an injury done
* * *, shall have remedy by due course of law.” Groch v.
Gen. Motors Corp., 117 Ohio St.3d 192, 201, 883 N.E.2d
377, ¶51. In Groch, the Court stated that “[t]he rights
encompassed by the remedy aspect of Section 16, Article
I are well settled. ‘When the Constitution speaks of
remedy and injury to person, property, or reputation, it
requires an opportunity granted at a meaningful time
and in a meaningful manner.’” Id. at ¶52, quoting Arbino
v. Johnson & Johnson, 116 Ohio St.3d 468, 880 N.E.2d
420 (2007), ¶44. The Ohio Court has previously identified
a practical and essential element of the Constitution’s
right-to-remedy clause: “When the Constitution speaks
of remedy and injury to person, property or reputation,
it requires an opportunity granted at a meaningful time
and in a meaningful manner.”  Gaines v. Preterm–
Cleveland, Inc., 33 Ohio St.3d 54, 60, 514 N.E.2d 709, 716
(1987) (emphasis added), quoting Hardy v. VerMeulen, 32
Ohio St.3d 45, 47, 512 N.E.2d 626, 628 (1987) overruled
on other grounds, Ruther v. Kaiser, 134 Ohio St.3d 408,
2012 – Ohio – 4686.
Without the ability to seek redress in court pursuant
to Ohio Rev. Code § 4905.61, Petitioners, and indeed all
Ohioans, have no recourse anywhere to seek redress for
violations of law that were designed specifically to protect
them. For example, where other consumers could utilize
Ohio’s Consumer Sales Practices Act, Ohio Rev. Code
§ 1345.01 (“CSPA”), cellular telephone customers could
not utilize that law because that statute specifically

16
states that is not applicable to transactions involving any
company that is defined in Ohio Rev. Code § 4905.03 as a
public utility. Likewise, where Ohio’s antitrust statutes,
Ohio Rev. Code § 1331 et seq. would generally allow a
consumer to bring an action for unfair and anticompetitive
practices, the Ohio Supreme Court has held that such
avenue is closed for customers of public utilities. State ex
rel. Cleveland Elec. Illuminating Co. v. Cuyahoga Court
of Common Pleas, 88 Ohio St.3d 447, 727 N.E.2d 900
(2000). Without recourse, the entire policy of ensuring
protection for Ohio’s consumers against unreasonable and
unlawful rates and unlawful discrimination as articulated
by both the Commission and the Ohio General Assembly
would be impossible to implement.
4. The PUCO Can Never Implement the Supreme
Court’s Decision.
The PUCO can never fulfill the Ohio Supreme Court’s
requirement that the PUCO identify persons injured
by the violation because determinations of injury are
explicitly outside of the PUCO’s jurisdiction. The Ohio
Supreme Court failed to recognize that the PUCO itself
was asked in the Cellnet case to determine whether
anyone was injured. In that case, they were asked by
Cellnet for a finding that in fact it was injured. The PUCO
refused to make a finding that even Cellnet was injured,
because, it held, such matters to be outside its jurisdiction.
The PUCO stated in this regard:
Although Count X of Cellnet’s Third Amended
Complaint appears to be directly centered on
the issue of the real and substantial economic
injury incurred by Cellnet due to the alleged

17
conduct of the respondents, Cellnet’s briefs
are restricted in focus to AirTouch Cellular’s
alleged violations of Section 4905.22, Revised
Code, (Cellnet Initial Br. 143-145). Such
arguments are misplaced in the context of
remedy sought through this count of the
complaint. The Commission finds that its rulings
with respect to the discrimination claims speak
for themselves. As to the issue of any economic
harm related to these determinations, the
Commission finds that its jurisdiction relative
to this case is limited to determining whether
a public utility has violated any specific statute
or order of the Commission. State ex. Rel.
Northern Ohio Tel. Co. v, Winter, 23 Ohio
St. 2d 6 (1970). Any determination relative
to resulting economic harm or damages
should be addressed by a court of competent
jurisdiction. (Emphasis added.)
Cellnet Opinion and Order at 93.
In short, the PUCO correctly stated that it only
declares the existence of a violation – but that it does
not have the power to determine whose rights had been
violated or who suffered any injury. The Ohio Supreme
Court has now held that “the ambit of ‘the person, firm, or
corporation’ that can bring a treble-damages action after
legal rights have been violated depends on the terms of the
PUCO’s finding or order declaring a violation.” Satterfield
v. Ameritech Mobile Comm., Inc., 155 Ohio St.3d 463,
122 N.E.3d 144 (2018). But in the very PUCO Opinion
in Cellnet that is the focus of the Ohio Supreme Court
here, the PUCO itself, relying on the Court’s precedent

18
in Winter, held that it could not address whether any
particular entity was economically harmed and that “its
jurisdiction relative to this case is limited to determining
whether a public utility has violated any specific statute or
order of the Commission.” Cellnet Opinion and Order at
93. This principle has been the law of Ohio since 1921. New
Bremen v. Pub. Util. Comm., 103 Ohio St. 23, 30, 132 N.E.
162. (1921) (where the Court first held that “[the] Public
Utilities Commission is in no sense a court. It has no power
to judicially ascertain and determine legal rights and
liabilities . . . .” ) Id.
CONCLUSION
It is inconsistent, and violative of the Constitutional
rights of every Ohioan to say that “only those who the
PUCO finds to be injured have standing” and at the same
time recognizing an explicit statement from the PUCO
and the Ohio Supreme Court that in fact it cannot address
who was injured. Since the PUCO itself in the Cellnet
order said that it could not even find that Cellnet suffered
harm, under the current reasoning, even Cellnet could not
have brought a case for damages under Ohio Rev. Code §
4905.61.
The Ohio Supreme Court’s current reasoning assumes
that in any given case, the PUCO can rule whether any
particular person or entity is injured – or determine the
nature of the injuries. The PUCO in the very order at
issue here has said that it cannot make such a ruling. The
PUCO’s view of the law is affirmed by the Court’s holding
in New Bremen.

19
For the foregoing reasons, Petitioner asks this Court
to grant the petition for Writ of Certiorari and hear this
appeal to protect the Due Process rights of all Ohioans.
Respectfully submitted,
Thomas R. Theado
Gary, Naegele & Theado, LLC
401 Broadway Avenue, Unit 104
Lorain, Ohio 44052
(440) 244-4809
Carla M. Tricarichi
Tricarichi & Carnes, L.L.C.
3601 Green Road,
Beachwood, Ohio 44122
(216) 378-9550

Dennis R. Rose
Counsel of Record
Rob Remington
Hahn Loeser & Parks LLP
200 Public Square, Suite 2800
Cleveland, OH 44114
(216) 621-0150
drrose@hahnlaw.com
Randy J. Hart
Randy J. Hart, LLP
3601 South Green Road,
Suite 309
Beachwood, Ohio 44122
(216) 978-9150

Counsel for Petitioner

APPENDIX

1a
Appendix OF
A THE SUPREME
APPENDIX A — OPINION
COURT OF OHIO, DATED DECEMBER 18, 2018
SUPREME COURT OF OHIO
Slip Opinion No. 2018-Ohio-5023
SATTERFIELD ET AL.; INTERMESSAGE
COMMUNICATIONS,
Appellee,
v.
AMERITECH MOBILE COMMUNICATIONS,
INC., ET AL.; CINCINNATI SMSA LIMITED
PARTNERSHIP,
Appellant.
(No. 2017-0684—Submitted July 18, 2018—
Decided December 18, 2018)
Appeal from the Court of Appeals for Cuyahoga
County, No. 104211, 2017-Ohio-928
K ennedy, J.
In this discretionary appeal from a judgment of
the Eighth District Court of Appeals, we consider the
parameters established by R.C. 4905.61 regarding the
parties that have standing to bring a treble-damages action
pursuant to that statute. Here, appellee, Intermessage
Communications (“Intermessage”), and members of

2a
Appendix A
a proposed class of retail cellular-telephone-service
subscribers seek to recover treble damages under R.C.
4905.61 for regulatory violations committed in the mid1990s when those regulatory violations—as determined
by the Public Utilities Commission of Ohio (“PUCO”)—
related to the wholesale cellular-service market.
Because the language of R.C. 4905.61 limits recovery
of treble damages to the “person, firm, or corporation”
directly injured as a result of the “violation, failure, or
omission” found by the PUCO, we hold that Intermessage
and the proposed class of retail cellular-service subscribers
lack standing to bring an action pursuant to R.C. 4905.61.
Moreover, because the resolution of the first proposition
of law asserted by appellant, Cincinnati SMSA Limited
Partnership (operating under the trade name Ameritech
Mobile) (“Ameritech”), resolves this case, we decline to
address Ameritech’s other proposition of law. We therefore
reverse the judgment of the Eighth District and order the
matter dismissed.
FACTS AND PROCEDURAL HISTORY
The origins of the current action arose in October
1993, when Westside Cellular, Inc., d.b.a. Cellnet
(“Cellnet”), filed a multicount complaint with the PUCO
against Ameritech and other wholesale cellular-service
providers. See In re Complaint of Westside Cellular, Inc.
v. New Par Cos., Pub. Util. Comm. No. 93-1758-RC-CSS,
2001 Ohio PUC LEXIS 18, *1-2, 96-100, 133-137, 230-233
(Jan. 18, 2001) (“the Cellnet order”). We will focus on only
the allegations against Ameritech and the resolution of

3a
Appendix A
those allegations in the Cellnet order because Ameritech
is the only wholesale cellular-service provider involved in
the current dispute.
Cellnet, a cellular-telephone-service reseller, had
purchased cellular service on a wholesale basis from
Ameritech, rebranded the service, and marketed it on a
retail basis. Westside Cellular, Inc. v. PUC, 98 Ohio St. 3d
165, 2002-Ohio-7119, 781 N.E.2d 199, ¶ 1. Cellnet alleged
that Ameritech had engaged in rate discrimination against
it. More specifically, Cellnet claimed that Ameritech had
failed to offer cellular service, equipment, and features to
Cellnet on a wholesale basis at the same rate Ameritech
had charged its own retail businesses. Id.; see also the
Cellnet order, 2001 Ohio PUC LEXIS 18 at *230-233.
Cellnet also claimed that Ameritech had failed to maintain
separate operations and records for its wholesale and
retail businesses. Id. at *96-100.
In 2001, the PUCO issued the Cellnet order, finding
that Ameritech had engaged in numerous practices that
were prohibited by R.C. Chapter 4905. The PUCO found
that Ameritech had failed to maintain its records in a
manner that satisfied the PUCO’s overriding purpose
to ensure that wholesale cellular-service providers
were providing access on a nondiscriminatory basis. Id.
at *108-112. The PUCO further found that Ameritech
had violated R.C. 4905.33 by charging Cellnet a higher
rate than Ameritech’s retail affiliate paid for the same
service under substantially the same circumstances and
conditions. Id. at *151.

4a
Appendix A
Ameritech appealed the findings of the PUCO in
the Cellnet order as of right to this court. We affirmed.
Cincinnati SMSA L.P. v. PUC of Ohio, 98 Ohio St. 3d 282,
2002-Ohio-7235, 781 N.E.2d 1012, ¶ 8.
Based upon the PUCO’s ruling regarding Ameritech’s
activities in the wholesale cellular-service market,
Intermessage and two other named plaintiffs who are no
longer involved in this litigation—Cindy Satterfield and
Cindy Satterfield, Inc., a.k.a. Highland Speech Services,
Inc.—filed the instant class-action complaint against
Ameritech and other parties in December 2003. Because
only the claims of Intermessage and the proposed class
against Ameritech are at issue in this case as it comes to
us, we will limit our discussion of the facts to those parties.
Intermessage was a retail purchaser of cellulartelephone service from Ameritech. It entered into contracts
with Ameritech for cellular-telephone numbers and used
the accompanying service to back up alarm systems that
Intermessage sold to its customers. Intermessage paid
Ameritech for the retail cellular service and then passed
those costs on to its customers.
Intermessage initially sought to define the class as “all
subscribers to Ameritech Mobile service from 1993-1998”
and sought recovery under several different theories of
relief, including under R.C. 4905.61. Intermessage claimed
that the practices Ameritech had engaged in—practices
for which the PUCO had already found Ameritech
liable—included preventing cellular-service resellers
from entering the Ohio market and from increasing the

5a
Appendix A
resellers’ market shares. Intermessage further alleged
that these practices caused each member of the proposed
class to pay more for cellular-telephone service than the
retail market otherwise would have charged.
The trial court in 2006 and 2008 made several rulings
that limited Intermessage’s class action against Ameritech
to recovery only under R.C. 4905.61 and only for the period
October 18, 1993, through September 8, 1995.
The trial court eventually granted Intermessage’s
motion for class certification, certifying a class under
Civ.R. 23(A) and (B)(3) consisting of “all retail subscribers
of [Ameritech] who purchased service with an Ohio
area code within geographic areas in which the PUCO
decision found wholesale price discrimination during
the period October 18, 1993 through September 8, 1995”
upon its finding that the statutory prerequisites for class
certification had been satisfied.
The Eighth District Court of Appeals affirmed,
concluding that the trial court had not abused its discretion
in certifying the class. 2017-Ohio-928, 86 N.E.3d 830, ¶ 30.
We accepted the following two propositions of law:
A claimant lacks standing to sue under R.C.
4905.61 for “treble the amount of damages
sustained in consequence of the violation”
absent a prior determination by the Public
Utilities Commission that the claimant’s rights
under a specific public utilities statute or
commission order were violated.

6a
Appendix A
Where a plaintiff relies upon a damages
model to establish that common issues would
predominate, the model must demonstrate that
injury-in-fact and damages can be proven on a
class-wide basis.
151 Ohio St. 3d 1501, 2018-Ohio-365, 90 N.E.3d 945.
ARGUMENTS OF THE PARTIES
Ameritech contends that Intermessage’s class action
cannot survive because the plain meaning of R.C. 4905.61
provides standing to sue only to those persons or entities
whose rights the PUCO has expressly found were violated.
In other words, Ameritech maintains that the statutory
language unequivocally limits standing to persons or
entities directly injured by the violations found by the
PUCO. Ameritech asserts that there is no language in
R.C. 4905.61 that authorizes a class-action lawsuit for
indirect harms allegedly caused by a violation of the rights
of some other person or entity. Intermessage counters that
this court should not adopt Ameritech’s interpretation,
because Ameritech seeks to have the court ignore the
actual language of the statute—which gives standing to
“the person * * * injured” by a violation—and Ameritech
also seeks to have us insert the phrase “whose rights the
PUCO expressly finds to have been violated” into the
statute.

7a
Appendix A
ANALYSIS
As set forth above, Ameritech’s first proposition of
law asserts that a claimant lacks standing to bring an
action under R.C. 4905.61 when the PUCO has never
made a determination that that claimant’s rights under
a specific statute or PUCO order were violated. Because
the language of R.C. 4905.61 is controlling, we begin in a
familiar place—the principles of statutory construction.
The interpretation of a statute is a question of law
that we review de novo. State v. Pariag, 137 Ohio St. 3d
81, 2013-Ohio-4010, 998 N.E.2d 401, ¶ 9. A court’s main
objective is to determine and give effect to the legislative
intent. State ex rel. Solomon v. Police & Firemen’s
Disability & Pension Fund Bd. of Trustees, 72 Ohio St.3d
62, 65, 1995-Ohio 172, 647 N.E.2d 486 (1995).
The intent of the General A ssembly must be
determined primarily from the language of the statute
itself. Stewart v. Trumbull Cty. Bd. of Elections, 34 Ohio
St.2d 129, 130, 296 N.E.2d 676 (1973). “When the statutory
language is plain and unambiguous, and conveys a clear
and definite meaning, we must rely on what the General
Assembly has said.” Jones v. Action Coupling & Equip.,
98 Ohio St. 3d 330, 2003-Ohio-1099, 784 N.E.2d 1172, ¶ 12,
citing Symmes Twp. Bd. of Trustees v. Smyth, 87 Ohio
St.3d 549, 553, 2000-Ohio 470, 721 N.E.2d 1057 (2000) .
“Where a statute defines terms used therein, such
definition controls in the application of the statute * * *.”
Good Samaritan Hosp. of Dayton v. Porterfield, 29 Ohio

8a
Appendix A
St.2d 25, 30, 278 N.E.2d 26 (1972), citing Terteling Bros.,
Inc. v. Glander, 151 Ohio St. 236, 241, 85 N.E.2d 379
(1949), and Woman’s Internatl. Bowling Congress, Inc. v.
Porterfield, 25 Ohio St.2d 271, 275, 267 N.E.2d 781 (1971).
Terms that are undefined in a statute are accorded their
common, everyday meaning. R.C. 1.42.
The public-utility treble-damages statute, R.C.
4905.61, provides:
If any public utility * * * does, or causes to be
done, any act or thing prohibited by Chapters
4901., 4903., 4905., 4907., 4921., 4923., and
4927. of the Revised Code, or declared to
be unlawful, or omits to do any act or thing
required by the provisions of those chapters, or
by order of the public utilities commission, the
public utility * * * is liable to the person, firm,
or corporation injured thereby in treble the
amount of damages sustained in consequence of
the violation, failure, or omission. Any recovery
under this section does not affect a recovery
of the state for any penalty provided for in the
chapters.
We have construed this provision to require that
before a suit may be brought for treble damages, there
must have been a prior declaration by the PUCO that
the public utility violated one of the statutes enumerated
within R.C. 4905.61 or an order of the PUCO. Milligan v.
Ohio Bell Tel. Co., 56 Ohio St.2d 191, 194, 383 N.E.2d 575
(1978). With this understanding in mind, we turn to the
question of the statute’s construction.

9a
Appendix A
Ameritech’s argument focuses on the legislature’s
use of the word “the”—instead of a word such as “a” or
“any”—in the phrase “the person, firm, or corporation.”
It contends that the General Assembly’s choice to use
“the” to precede “person” demonstrates the legislative
intent to confer standing only on those persons or entities
whose rights the PUCO has expressly found were violated.
However, this is not where our focus lies. Instead,
resolution of this matter centers upon the phrases “injured
thereby” and “in consequence of the violation, failure, or
omission.” The General Assembly did not define “injure,”
“thereby,” or “consequence” for purposes of R.C. 4905.61.
Therefore, we first consider the dictionary definitions of
these terms.
“Injure” is defined as “[t]o violate the legal right
of another or inflict an actionable wrong.” Black’s Law
Dictionary 785 (6th Ed.1990). “Thereby” is defined as
“by that,” “by that means,” “in consequence of that,”
“connected with that,” or “with reference to that.”
Webster’s Third New International Dictionary 2372
(2002). “Consequence” is defined as “something that is
produced by a cause or follows from a form of necessary
connection or from a set of conditions” or “a natural or
necessary result.” Id. at 482.
Applying these definitions, R.C. 4905.61 is susceptible
of only one interpretation. “Thereby” and “in consequence
of ” express that the phrase “the person, firm, or
corporation injured” specifically relates to the violation,
failure, or omission declared by the PUCO. This reflects
the General Assembly’s intention to limit the recovery of

10a
Appendix A
treble damages to only “the person, firm, or corporation”
that was injured as a consequence of the violation declared
by the PUCO. In other words, the ambit of “the person,
firm, or corporation” that can bring a treble-damages
action after legal rights have been violated depends on
the terms of the PUCO’s finding or order declaring a
violation. Therefore, to determine the persons or entities
that have standing to bring a treble-damages action under
the statute, the relevant order or finding of the PUCO
must be examined.
In this matter, the violations found in the Cellnet order
were related to Ameritech’s failure to maintain separate
wholesale and retail operations and the corresponding
discriminatory impact on nonaffiliated resellers. The
PUCO stated in the Cellnet order that the duty to maintain
separate operations was not solely owed to the PUCO
but was necessary to protect unaffiliated resellers from
discriminatory and anticompetitive conduct:
“[I]t is necessary that Cellular licensees
provide access to * * * cellular service pursuant
to terms, conditions, and prices that are
universally available on a nondiscriminatory
basis to all customers, affiliated and nonaffiliated alike” in order to prevent frustration
of the public policy respecting resale.
(Emphasis added.) 20 01 Ohio PUC LEXIS 18 at
*112-113, quoting In re Commission’s Investigation
into Implementation of Sections 4927.01 through
4927.05, Revised Code, as They Relate to Competitive

11a
Appendix A
Telecommunications Servs., Pub. Util. Comm. No.
89-563-TP-COI, 1993 Ohio PUC LEXIS 1161, *50 (Oct. 22,
1993). Moreover, the PUCO recognized the specific impact
to Cellnet that resulted from Ameritech’s discriminatory
practices:
[T]he record clearly demonstrates that Cellnet
was treated less favorably, at least in some
cases, than Ameritech Mobile’s retail arm
and, in some cases, retail customers. * * *
[T]he Commission points to the comparisons
provided relative to the terms, and conditions
offered to Cellnet and those extended by
Ameritech Mobile retail * * *. In addition, the
Commission considers the comparison between
the rates offered to Cellnet to the rates,
terms, and conditions reflected in [certain]
Cellnet Exhibits. * * * These differences exist
despite the fact that [two of] the Commission’s
* * * [past] orders [have] required that cellular
licensees provide access pursuant to terms,
conditions, and prices that are universally
available on a nondiscriminatory basis.
Id. at *145-146.
The Cellnet order reveals that pursuant to R.C.
4905.61, the parties injured by the violations—Ameritech’s
discriminatory behavior—were nonaffiliated cellulartelephone-service resellers in the wholesale market,
i.e., direct purchasers of wholesale cellular service from
Ameritech. Intermessage was not a cellular-telephoneservice reseller in the wholesale market. Intermessage

12a
Appendix A
was a purchaser of cellular service. It was a retail
customer of Ameritech that purchased cellular service
to back up its alarm systems, and any injuries it suffered
were qualitatively different from those found in the
Cellnet order, meaning that Intermessage’s injuries
were indirect and remote. The fact that Intermessage
simply passed those costs on to its customers does not
make Intermessage a reseller in the wholesale market.
Intermessage’s customers were not purchasing cellular
service from Intermessage. Intermessage’s customers
were purchasing an alarm system with backup features
that relied on Ameritech’s cellular service. Therefore,
Intermessage and the other retail customers of Ameritech
in the proposed class that were similarly indirectly injured
are unable to bring an action for treble damages pursuant
to R.C. 4905.61 based upon the violations found in the
Cellnet order.
CONCLUSION
Because the language of R.C. 4905.61 limits recovery
of treble damages to the “person, firm, or corporation”
directly injured as a result of the “violation, failure, or
omission” found by the PUCO, we hold that Intermessage
and members of the proposed class of retail cellularservice subscribers lack standing to bring an action
pursuant to R.C. 4905.61. We therefore reverse the
judgment of the court of appeals and order the trial court
to dismiss this matter.
Judgment reversed.
O’Connor, C.J., and O’Donnell, French, Fischer,
Dewine, and Degenaro, JJ., concur.

13a
Appendix B AND JOURNAL
APPENDIX B— JUDGMENTS
ENTRIES OF THE COURT OF APPEALS OF
OHIO, EIGHTH DISTRICT AND THE COURT OF
COMMON PLEAS, CUYAHOGA COUNTY, OHIO
COURT OF APPEALS OF OHIO
EIGHTH DISTRICT
County of Cuyahoga
Nailah K. Byrd, Clerk of Courts
COA NO. 104211
LOWER COURT NO. CV-03-517318
COMMON PLEAS COURT
MOTION NO. 505778
CINDY SATTERFIELD, et al.,
Appellee,
-vsAMERITECH MOBILE COMMUNICATIONS, INC.,
et al.,
Appellee.
Dated: April 7, 2017
JOURNAL ENTRY
Motion by appellant for reconsideration is denied.

14a
Appendix B
Adm. Judge, KATHLEEN ANN
KEOUGH,
Concurs
Judge ANITA LASTER MAYS,
Concurs
/s/				
MARY EILEEN KILBANE
Judge

15a
Appendix B
COURT OF APPEALS OF OHIO
EIGHTH APPELLATE DISTRICT
COUNTY OF CUYAHOGA
JOURNAL ENTRY AND OPINION
No. 104211
CINDY SATTERFIELD, et al.,
Plaintiffs-Appellees,
Vs.
AMERITECH MOBILE COMMUNICATIONS, INC.,
et al.,
Defendants-Appellants.
JUDGMENT:
AFFIRMED
Civil Appeal from the Cuyahoga County
Court of Common Pleas
Case No. CV-03-517318
BEFORE: Kilbane, J., Keough, A.J., and Laster Mays, J.
RELEASED AND JOURNALIZED: March 16, 2017

16a
Appendix B
MARY EILEEN KILBANE, J.:
Defendant-appellant, Cincinnati SMSA Limited
Partnership (operating under the trade name Ameritech
Mobile (“Ameritech”)), appeals from the trial court’s
order certifying a class action complaint brought by
plaintiffs-appellees, Cindy Satterfield (“Satterfield”),
Cindy Satterfield, Inc., n.k.a. Highland Speech Services,
Inc. (“Highland”), and Intermessage Communications
(“Intermessage”) (collectively referred to as “plaintiffs”).
For the reasons set forth below, we affirm.
In December 2003, Satterfield, Highland, and
Intermessage filed a class action complaint against
Ameritech, Ameritech Mobile Communications, Inc.,
Verizon Wireless a.k.a. New Par, Verizon Wireless
(“VAW”), L.L.C., and Airtouch Cellular Eastern Region,
L.L.C. (the last three of which are collectively referred to
as (“Verizon”)). Ameritech and Verizon are providers of
wholesale and retail cellular telecommunications services
and equipment.
Satterfield and Highland purchased cellular service
from Verizon. Intermessage was a retail customer of
Ameritech owned primarily by Kevin Moore (“Moore”)
and Robert Schimmelphennig (“Schimmelphennig”).
Intermessage operated a two-way radio business and
sold backup panels for alarm systems. Intermessage
purchased cellular service from Ameritech and placed it
into a product that was used to back up the alarm systems
it sold. Intermessage paid Ameritech directly for the cost
of the cellular service and then passed those costs to its

17a
Appendix B
customers. Intermessage dissolved in 2001 and Moore
and Schimmelphennig created a new business, Wireless
Associates, Ltd. (“Wireless Associates”). Moore sold his
interest in Wireless Associates to Schimmelphennig in
2005.
The complaint is based upon a prior ruling of the
Public Utilities Commission of Ohio (“PUCO”), finding
that Ameritech and Verizon discriminated against
Cellnet, an independent reseller of cellular services, with
respect to their offering of wholesale services to Cellnet.
See In the Matter of Complaint of Westside Cellular, Inc.
d.b.a. Cellnet v. New Par Cos. d.b.a. AirTouch Cellular
& Cincinnati SMSA Ltd. Partnership, PUCO Case No.
93-1758-RC-CSS, 2001 Ohio PUC LEXIS 18 (Jan. 18,
2001) (“Cellnet Order”). Cellnet alleged that Ameritech
and Verizon had discriminated against it by unlawfully
providing cellular service, equipment, and features to
their own retail operations at rates, terms, and conditions
more favorable than those that they made available to
Cellnet. The PUCO found that Ameritech and Verizon
committed numerous acts prohibited by R.C. Chapter
4905 (titled Public Utilities Commission — General
Powers), commencing October 18, 1993.1 Specifically,
Ameritech and Verizon provided retail cellular service to
end users at rates and upon terms and conditions more
favorable than those that they made available to Cellnet.
1. Under R.C. Chapter 4905, the PUCO requires all Ohio
cellular phone companies to sell cellular service at nondiscriminatory
wholesale rates. By increasing the number of competitors that could
offer cellular service, the public would benefit from the lower prices
that such competition would naturally cause.

18a
Appendix B
In their complaint, Satterfield, Highland, and
Intermessage defined the members of its class as all
subscribers to the Verizon defendants’ service from
1991-1997 and all subscribers to Ameritech service from
1993-1998. Plaintiffs asserted the following three causes
of action: (1) recovery for treble damages under R.C.
4905.61; (2) unjust enrichment; and (3) tortious acquisition
of a benefit. They essentially claimed that
[Ameritech] cheated Ohio cellular telephone
consumers out of millions of dollars by excluding
competitors that charged lower rates and by
locking-in customers before other competitors
could enter the market. By manipulating the
market for cellular telephone service in Ohio
— practices for which the PUCO has already
found [Ameritech] liable — [Ameritech] caused
each Class Member, including [Intermessage],
to pay more for cellular telephone service than
the market otherwise would have charged.
In January 2006, the trial court dismissed plaintiffs’
causes of action for unjust enrichment and tortious
acquisition, finding that R.C. 4905.61 is the exclusive
remedy for the plaintiffs. Under R.C. 4905.61, a plaintiff
may recover against a public utility when the PUCO
finds that a public utility engaged in conduct prohibited
by statute or a PUCO order and the plaintiff suffered
damages as a result of that conduct.
In September, 2008, the court granted Verizon’s
motion for judgment on the pleadings against Satterfield

19a
Appendix B
and Highland on statute of limitations grounds. In October
2008, the parties agreed to dismiss all claims against
Ameritech Mobile Communications, Inc. Therefore,
the remaining cause of action before the trial court was
Intermessage’s claim against Ameritech under R.C.
4905.61, which was limited by the trial court to the period
of October 18, 1993 through September 8, 1995.
Also in September 2008, the trial court concluded
that Intermessage’s claim for 1995-1998 was barred
by the statute of limitations. The court found that the
statute of limitations for the 1995-1998 claim expired on
January 18, 2002, which was one year after the PUCO
issued the Cellnet Order. The court found, however, that
Intermessage could maintain its claim for the 1993-1995
period because such claim is controlled by the Ohio
Supreme Court’s decision that reviewed the Cellnet Order
— Westside Cellular, Inc. v. Pub. Utils. Comm., 98 Ohio
St.3d 165, 2002-Ohio-7119, 781 N.E.2d 199. In Westside
Cellular, the Ohio Supreme Court reversed that part of
the Cellnet Order, finding that Cellnet could not have
suffered economic injury prior to 1995 because it had not
earlier made a formal request to Ameritech for wholesale
service. Instead, the court held that the applicable time
frame commenced on October 18, 1993, which was the date
of Cellnet’s complaint to the PUCO. Id. at ¶ 10.
Then in December 2008, Intermessage filed a motion
for class certification. Intermessage sought certification
on behalf of “all retail subscribers of [Ameritech] who
purchased service with an Ohio area code during the
period October 18, 1993 through September 8, 1995.” In

20a
Appendix B
June 2015, the trial court conducted a pretrial conference
to discuss the pending motion and required the parties to
submit proposed orders.
On February 9, 2016, the trial court entered an opinion
and order granting Intermessage’s motion for class
certification. In a 19-page order, the trial court certified
a class under Civ.R. 23(A) and (B)(3) consisting of “all
retail subscribers of [Ameritech] who purchased service
with an Ohio area code within geographic areas in which
the PUCO decision found wholesale price discrimination
during the period October 18, 1993 through September
8, 1995.” In a thorough 19-page opinion, the trial court
certified this class “on all the remaining claims, issues,
and defenses presented in this action.”
It is from this order that Ameritech appeals, raising
the following assignment of error for review.
Assignment of Error
The trial court erred in granting the motion
for class certification filed by [Intermessage].
In the sole assignment of error, Ameritech claims the
court erred in granting class certification to Intermessage
because it lacks standing to pursue its purported claim
against Ameritech. Ameritech further argues that even if
Intermessage had standing to bring the class action, the
class was erroneously certified because: (1) it necessarily
includes persons who were not injured; (2) individualized
issues predominate over common questions of fact or

21a
Appendix B
law; (3) its claims are no typical of the purported class;
and (4) a class action is not superior to other methods of
adjudication.
Standing
Ameritech first argues that the class certification
fails because Intermessage lacks standing as an adequate
class representative for the following three reasons:
(1) Intermessage no longer owns its claim against
Ameritech, but assigned it to others after it dissolved;
(2) after dissolving, Intermessage failed to pursue its
claim against Ameritech as speedily as practicable under
R.C. 1701.88(D); and (3) the violations at issue found
by the PUCO concerned duties Ameritech owed to an
independent reseller regarding the provision of wholesale
services, while Intermessage and the purported class it
seeks to represent consist of indirect, retail purchasers.
We disagree.
R.C. 1701.88, which establishes the powers of a
corporation after dissolution, provides that “[a]ny claim
existing or action or proceeding pending by or against the
corporation may be prosecuted to judgment, with right
of appeal as in other cases.” Id. at (C). Therefore, “the
dissolution of a corporation does not abate ‘[a]ny claim
existing or action or proceeding pending by or against
the corporation or which would have accrued against it
* * *.’” State ex rel. Falke v. Montgomery Cty. Residential
Dev., 40 Ohio St.3d 71, 74, 531 N.E.2d 688 (1988), quoting
R.C. 1701.88(B).

22a
Appendix B
Ameritech argues that Intermessage lacks standing
because Intermessage transferred its claim to either
Wireless Associates, Ltd., or Schimmelphenning and
Moore, after dissolving. In support of its contention,
Ameritech relies on certain deposition testimony of
Moore and Schimmelphennig. However, when asked
about Intermessage’s assets Schimmelphennig stated
that “I can’t tell you specifically * * * [b]ecause I
don’t recall.” Additionally, Moore was never asked
whether Intermessage had transferred its claim against
Ameritech. In his affidavit attached to Intermessage’s
motion for class certification, he stated that “[t]he claims
brought in this suit on behalf of [Intermessage] existed
in favor of [Intermessage] at the time of its dissolution,
and are being pursued in this litigation pursuant to [R.C.
1701.88.]” Thus, Intermessage’s claim against Ameritech
remained an asset of Intermessage after dissolution.
A mer it ech a lso cont ends that Int er message
lacks standing to pursue its claim against it because
Intermessage did not commence this action “as speedily
as is practicable” when winding up its affairs. R.C.
1701.88(D) provides that the directors of a dissolved
corporation “shall proceed as speedily as is practicable to
a complete winding up of the affairs of the corporation.”
“A corporation continues to exist after dissolution, for
the purpose of winding up its affairs[.]” Diversified Prop.
Corp. v. Winters Natl. Bank & Trust Co., 13 Ohio App.2d
190, 193, 234 N.E.2d 608 (2d Dist.1967), paragraph one
of syllabus.

23a
Appendix B
Ameritech claims that Intermessage waited 33
months to bring this suit. Ameritech acknowledges that
Intermessage filed within the statute of limitations, but
argues that it was not “speedily enough.” The damages
Intermessage seeks against Ameritech occurred from
October 18, 1993, through September 8, 1995. However,
recovery of those damages can be only be obtained
through a lawsuit brought under R.C. 4905.61, which
cannot be initiated without a prior finding that the utility
had violated a PUCO statute or order. Cleveland Mobile
Radio Sales, Inc. v. Verizon Wireless, 113 Ohio St.3d
394, 2007-Ohio-2203, 865 N.E.2d 1275, ¶ 21, citing R.C.
4905.61; Milligan v. Ohio Bell Tel. Co., 56 Ohio St.2d 191,
383 N.E.2d 575 (1978), paragraph one of the syllabus. In
the instant case, the liability finding was not made until
2001 by the Cellnet Order, which was not rendered final
until 2002 by Cincinnati SMSA L.P. v. Pub. Util. Comm.
of Ohio, 98 Ohio St.3d 282, 2002-Ohio-7235, 781 N.E.2d
1012. That finding expressly excluded the period of time
now at issue in this lawsuit — October 18, 1993 through
September 8, 1995. Cellnet Order, 2001 Ohio PUC LEXIS
18 at 269-271. The first finding of liability involving
the relevant 1993-1995 time period was not made until
December 26, 2002, by the Supreme Court in Westside
Cellular. Intermessage’s complaint was filed within a year
later on December 16, 2003. R.C. 1701.88(A) provides
that a corporation may do such acts as are required to
wind up its affairs and for this purpose the dissolved
corporation “shall continue as a corporation for period of
five years from the dissolution[.]” Intermessage filed this
lawsuit within three years of its dissolution. Therefore,
Intermessage commenced its complaint as speedily as
practicable in accordance with R.C. 1701.88.

24a
Appendix B
Ameritech further argues that Intermessage lacks
standing because the Cellnet Order did not establish
liability as to Intermessage or any other retail customer.
In the Cellnet Order, the PUCO held that Ameritech had
violated Ohio statutes and PUCO orders, which provided
that cellular telephone companies were required to
maintain separate wholesale and retail operations; and
the terms, conditions, and rates that the Ameritech’s
wholesale operations made available to Ameritech’s
affiliated retail operations were to be made available to
any unaffiliated wholesale customer of Ameritech.
In the Cellnet Order, the PUCO found that Ameritech
was providing its own affiliated reseller with service
and equipment for free, while charging, or attempting
to charge, the unaffiliated reseller Cellnet for the same
service. This resulted in Ameritech being able to charge
its own customers for service when it had minimized the
competition. Intermessage’s economic expert believes
that the price Ohio consumers would have paid without
Ameritech’s conduct is about two-thirds of what they did
pay. R.C. 4905.61 does not require anything more than a
finding of unlawful conduct on the part of a public utility
in order to permit an injured party to institute an action
for damages in common pleas court.
Thus, based on the foregoing, we find that Intermessage
has standing to recover damages against Ameritech for
the injury caused by the PUCO violations.
Having found that Intermessage has standing to
bring the class action against Ameritech, we now address

25a
Appendix B
Ameritech’s arguments regarding the trial court’s
certification of the class action.
Class Action — Standard of Review
A trial court has broad discretion in determining
whether to certify a class action, and an appellate
court should not disturb that determination absent an
abuse of discretion. Marks v. C.P. Chem. Co., 31 Ohio
St.3d 200, 509 N.E.2d 1249 (1987), syllabus. “The term
‘abuse of discretion’ connotes more than an error of
law or, judgment; it implies that the court’s attitude is
unreasonable, arbitrary or unconscionable.” (Citations
omitted.) Blakemore v. Blakemore, 5 Ohio St.3d 217, 219,
450 N.E.2d 1140 (1983), quoting State v. Adams, 62 Ohio
St.2d 151, 404 N.E.2d 144 (1980). In Hamilton v. Ohio
Sav. Bank, 82 Ohio St.3d 67, 694 N.E.2d 442 (1998), the
Ohio Supreme Court noted that “the appropriateness of
applying the abuse-of-discretion standard in reviewing
class action determinations is grounded * * * in the
trial court’s special expertise and familiarity with casemanagement problems and its inherent power to manage
its own docket.” Id. at 70, citing Marks; In re NLO, Inc.,
5 F.3d 154 (6th Cir.1993). “A finding of abuse of discretion
* * * should be made cautiously.” Marks at 201.
The Hamilton court further noted that the trial
court’s discretion in deciding whether to certify a class
must be exercised within the framework of Civ.R. 23. Id.
The trial court is required to “carefully apply the class
action requirements” and to conduct a “rigorous analysis”
into whether the prerequisites for class certification under

26a
Appendix B
Civ.R. 23 have been satisfied. Id. Cullen v. State Farm
Mut. Auto. Ins. Co., 137 Ohio St.3d 373, 2013-Ohio-4733,
999 N.E.2d 614, paragraph one of the syllabus.
Requirements for Class Action Certification
In determining whether a class action is properly
certified, the first step is to ascertain whether the threshold
requirements of Civ.R. 23(A) have been met. Once those
requirements are established, the trial court must turn
to Civ.R. 23(B) to discern whether the purported class
comports with the factors specified therein. Accordingly,
before a class may be properly certified as a class action,
the following seven prerequisites must be met: (1) an
identifiable class must exist, and the definition of the
class must be unambiguous; (2) the named plaintiff
representatives must be members of the class; (3) the class
must be so numerous that joinder of all the members is
impracticable; (4) there must be questions of law or fact
common to the class; (5) the claims or defenses of the
representatives must be typical of the claims or defenses
of the class; (6) the representative parties must fairly
and adequately protect the interests of the class; and (7)
one of the three requirements under Civ.R. 23(B) must
be met. Hamilton, 82 Ohio St.3d at 71, 694 N.E.2d 442,
citing Civ.R. 23(A) and (B); Warner v. Waste Mgt. Inc.,
36 Ohio St.3d 91, 96, 521 N.E.2d 1091 (1988). Of the Civ.
R. 23(B) requirements, subsection (3) is applicable to the
instant case. This section provides that a class action
may be allowed if “the questions of law or fact common to
class members predominate over any questions affecting
only individual members, and that class action is superior

27a
Appendix B
to other available methods for fairly and efficiently
adjudicating the controversy.” We note that the burden of
establishing that a cause of action merits treatment as a
class action rests on the party bringing the lawsuit. State
ex rel. Ogan v. Teater, 54 Ohio St.2d 235, 247, 375 N.E.2d
1233 (1978), citing Tolbert v. Western Elec. Co., 56 F.R.D.
108 (N.D.Ga. 1972); McFarland v. Upjohn Co., 76 F.R.D.
29 (E.D.Pa. 1977).
Here, A meritech raises arguments similar to
those it raised before the trial court. It argues that the
class certification must be reversed because the class
necessarily includes persons who were not injured;
individualized issues predominate; Intermessage failed
to establish harm and damages on a class-wide basis;
Intermessage cannot prove typicality; and a class action
is not superior to other methods of adjudication. The trial
court addressed these arguments and found in favor of
Intermessage. We agree with the trial court.
In its thoughtful and detailed opinion granting class
action certification, the court wrote:
Typicality: This case satisfies Civ.R. 23(A)
(3), requiring that the claims or defenses of
the representative parties are typical of the
claims or defenses of the class. To satisfy this
requirement, the claims of the named plaintiff
“need not be identical” to those of other class
members. [PlannedParenthood Assn. v. Project
Jericho, 52 Ohio St.3d 56, 64, 556 N.E.2d 157].

28a
Appendix B
[A] plaintiff’s claim is typical if it arises from the
same event or practice or course of conduct that
gives rise to the claims of other class members,
and if his or her claims are based on the same
legal theory. When it is alleged that the same
unlawful conduct was directed at or affected
both the named plaintiff and the class sought
to be represented, the typicality requirement
is usually met irrespective of varying fact
patterns which underlie individual claims.
Baughman v. State Farm Mut. Auto. Ins.
Co., 88 Ohio St.3d 480, 485, 2000-Ohio-397,
727 N.E.2d 1265 (2000), quoting Newberg on
Class Actions (3 Ed.1992) Sec. 3.13 (internal
quotation omitted). The purpose of typicality is
to protect absent class members and promote
economy of class action by ensuring the
named plaintiffs’ interests are substantially
aligned with the class. Typicality is met where
there is no express conflict between the class
representatives and the class. Hamilton, [82
Ohio St.3d at 77, 694 N.E.2d 442].
[Ameritech] argues [Intermessage] is uniquely
atypical because it passed on the entire
cost of cellular service it purchased to its
customers. [Intermessage] was manufacturer
and seller of backup panels for alarm systems.
[Intermessage] purchased cellular service
for the backup panels from [Ameritech], and
then sold the panels to its customers. Thus,

29a
Appendix B
[Intermessage] did not suffer the overcharge
damages claimed by other class members.
However, this argument constitutes “passingon” defense, rebutted by the well-established
rule that an offense is complete at the time of
injury, regardless of the victim’s later acts in
mitigation. [Hanover Shoe, Inc, v. United Shoe
Machine Corp., 392 U.S. 481, 88 S.Ct. 2224, 20
L.Ed.2d 1231 (1968)]. [Intermessage] purports
that the class is comprised of retail purchasers
of cellular service, rather than retail users.
Additionally, merely because [Intermessage]
passed on the overcharge to its customers does
not establish conflict between [Intermessage]
and the other class members.
The evidence of record shows [Intermessage’s]
claim against [Ameritech] arises from the same
events, practices, and conduct that give rise to
the claims of every other class member, and
the claims of each class member are based on
the same legal theory. [Intermessage] alleges
the same unlawful conduct was directed at or
affected the named [Intermessage] and every
other member of the class. More importantly,
there is no conflict, express or otherwise,
between the named [Inter message] and
the class. The typicality criterion for class
certification is satisfied in this action.

30a
Appendix B
Adequacy: This case also satisfies Civ.R. 23(A)
(4), requiring that the representative parties
fairly and adequately protect the interests
of the class. This requirement “is divided
into consideration of the adequacy of the
representatives and the adequacy of counsel.”
[Warner, 36 Ohio St.3d at 98, 521 N.E.2d
1091 (1988)]. [Ameritech] does not contest
the adequacy of [Intermessage’s] counsel to
represent the class, but [Ameritech] does
contend [Intermessage] is an inadequate class
representative.
A named plaintiff is deemed adequate so long
as his or her interest is not antagonistic to the
interest of other class members. Hamilton,
[82 Ohio St.3d at 77-78, 694 N.E.2d 442];
Warner [at 98]; Marks, [31 Ohio St.3d at 203,
509 N.E.2d 1249]. The evidence of record
shows the interests of [Intermessage] are
not antagonistic to the interests of any other
member of the class. [Intermessage] was a
retail subscriber and purchased service with an
Ohio area code during the relevant time period.
[Intermessage’s] interest is compatible with the
interest of other class members who were also
retail subscribers.
[Ameritech] argues [Intermessage] is an
inadequate class representative because
[Intermessage] may be distracted by an
arguable defense peculiar to it. Specifically,

31a
Appendix B
[Intermessage] is a dissolved corporation
that failed to bring this matter as speedily
as practicable to complete the winding up of
its affairs as required by [R.C. 1701.88(D)].
[Intermessage] was voluntarily dissolved in
March 2001 and brought the present action in
December 2003. However, there is no strict rule
requiring dissolved corporation to complete the
winding up of its affairs by set date. Pursuant
to [R.C. 1701.88(A)], a corporation may do such
acts as are required to wind up its affairs and
for this purpose the dissolved corporation shall
continue as corporation for period of five years
from the dissolution. [Intermessage] filed this
lawsuit within three years of its dissolution.
[Ameritech]’s argument has no merit.
Also, [Ameritech] now asserts [Intermessage]
is an inadequate class representative because
[Int er message’s] st atus a s a d issolved
corporation means it lacks standing to bring
this claim. Standing involves the question
of whether party has sufficient stake in an
otherwise justiciable controversy to obtain
judicial resolution of that controversy. Fed.
Home Loan Mortg. Corp. v. Schwartzwald, 134
Ohio St.3d 13, 17, 2012-Ohio-5017, 979 N.E.2d
1214. The standing argument is similar to
[Ameritech’s] argument that [Intermessage]
failed to bring this matter as speedily as
practicable to complete the winding up of its
affairs as required by R. C. 1701.88(D). Both

32a
Appendix B
arguments invoke the Ohio statute dictating
how a voluntarily dissolved corporation may
bring lawsuit.
Under Ohio law, a dissolved corporation may
bring lawsuit if it is brought as part of the
company’s winding up of its affairs. Under R.C.
1701.88(A), “when a corporation is dissolved
voluntarily . . . the corporation shall cease
to carry on business and shall do only such
acts as are required to wind up its affairs
* * * and for such purposes it shall continue
as corporation for period of five years from
the dissolution, expiration, or cancellation.”
Pursuant to [R.C. 1701.88(B)], the voluntary
dissolution of corporation shall not eliminate
any remedy available to the corporation prior
to its dissolution if the corporation brings
an action within the time limits otherwise
permitted by law.
In this case, [Intermessage] was dissolved in
March 2001 and filed this lawsuit in December
2003. [Intermessage] seeks remedy arising
from conduct which occurred between October
18, 1993 and September 8, 1995. The PUCO
decision finding that [Ameritech] had engaged
in price discrimination was released on January
18, 2001. Both [Ameritech’s] alleged conduct
and the PUCO decision occurred prior to the
corporation’s dissolution. There is. no dispute the
case was brought within the applicable statute

33a
Appendix B
of limitations. Accordingly, [Intermessage] is an
adequate class representative and will not be
distracted by an arguable defense peculiar to it.
***
[Intermessage] has satisfied the adequacy
criterion for class certification.
Predominance: Questions of law and fact
common to the members of the class must
predominate over any questions affecting
individual members. Predominance is met
when there exists generalized evidence which
proves or disproves an element on simultaneous,
class-wide basis, since such proof obviates the
need to examine each class member’s individual
position. [Baughman v. State Farm Mut. Auto
Ins. Co., 88 Ohio St.3d 480, 489, 727 N.E.2d
1265 (2000).]
In determining whether common questions
predominate, “the focus of the inquiry is
directed toward the issue of liability.” Cicero v.
U.S. Four, Inc., 10th Dist. Franklin No. 07AP310, 2007-Ohio-6600, ¶ 38. The predominance
requirement is satisfied where the questions
of law or fact common to the class represent a
significant aspect of the case and are able to be
resolved for all members of the class in single
adjudication. Schmidt v. AVCO Corp. 15 Ohio
St.3d 310, 313, 473 N.E.2d 822 (1984).

34a
Appendix B
The central issue of this case is to what extent
[Ameritech] is liable to [Intermessage] for
[Ameritech’s] wholesale price discrimination. In
[the Cellnet Order,] the PUCO found [Ameritech]
had engaged in unlawful discriminatory pricing
practices. Under [R.C. 4905.61], a public utility
which engages in price discrimination is liable
to any person, firm, or corporation injured by
such violation.
The issues presented by [Intermessage’s R.C.
4905.61] claims are common to the proposed
class — e.g., whether [Ameritech’s] conduct
affected the market and proximately caused
retail cellular prices to be artificially inflated;
whether [Ameritech’s] conduct prevented
resellers from increasing their market share
by lowering their prices; whether [Ameritech’s]
conduct prevented other resellers from entering
the Ohio market; and whether and to what
extent [Ameritech’s] conduct proximately
caused injury to the members of the class.
These issues “represent significant aspect of
the case” and are “able to be resolved for all
members of the class in a single adjudication.”
Schmidt, [15 Ohio St.3d at 313, 473 N.E.2d 822].
All of the issues bearing upon [Ameritech’s]
liability are common to the class as whole.
These issues can be adjudicated in single, classwide trial and predominate over any individual
issues that might remain.

35a
Appendix B
[Intermessage’s] expert Dr. Gale opined that
without discriminatory pricing, resellers would
have been more competitive, whether as group
because there are more of them, or because
particular reseller became more competitive,
causing prices to decline. The price decline
would have impacted all consumers. Gale Dep.
at 67.
Dr. Gale further stated: “It is my opinion that
the alleged acts by [Ameritech] had class-wide
impact, and that there are feasible and widelyused methodologies for showing the impact
through common proof.” Report of John M.
Gale (“Gale Report”), at p. 2. Dr. Gale identified
one possible model for measuring damages
the “McFadden/Woroch model” developed for
the damages litigation arising from the PUCO
determination[.] During this litigation, Dr. Gale
assisted Professors McFadden and Woroch with
“preparing an expert report which included
damage estimate for Cellnet [aka Westside
Cellular, the plaintiff in the PUCO case] based
on standard model of competition and consumer
demand well documented in the economics
literature.” Gale Report at p. 4.
Dr. Gale described the McFadden/ Woroch
model as follows: “[t]he damages model
employed by Professors McFadden and Woroch
estimated, for each) year in each of seven Ohio
SMSAs [Standard Metropolitan Statistical

36a
Appendix B
Areas], retail prices and sales for each of the two
facilities-based cellular providers and Cellnet
but for the price discrimination. The model relied
upon data for costs, revenues, subscribers, and
prices provided by defendants and Cellnet. In
addition, the model, used estimates of consumer
demand for wireless services published in the
economics literature. The methodology did
not vary across SMSAs and years. During the
[Cellnet] litigation, variations of the damages
model were introduced by one defendant’s
expert that included entry of multiple resellers
at the non-discriminatory wholesale prices.”
Gale Report at p. 4. As explained by Dr. Gale,
“[t]hese models, relied upon by both Cellnet’s
and defendant’s experts demonstrate not only
that model which shows class-wide impact is
available, but that such model has already been
developed and used.” [Id.]
[Ameritech] argues the court must deny class
certification because Dr. Gale does not propose
definite method allocating damages among the
proposed class. [Ameritech] challenges Dr.
Gale’s Report because, as Dr. Gale admits, he
has never used the McFadden/Woroch model
to determine class-wide impact and damages
in this case. In fact, the model would have to
be adapted to show class-wide impact across,
the retail market. Gale Dep. p. 69.

37a
Appendix B
[Ameritech] relies principally on the United
States Supreme Court’s decision in [Comcast
Corp. v. Behrend, 133 S.Ct. 1426, 185 L.Ed.2d
515 (2013)]. [Ameritech] argues that Comcast
stands for the proposition that [Intermessage]
must provide damages model susceptible to
measurement across the entire class in order
to satisfy the predominance requirement. This
reading of the Comcast holding is unduly broad.
***
Comcast was unusual because the plaintiff’s
damages model was disconnected f rom
the plaintiff’s theory of liability. Comcast
i s d i st i ng u i she d b e c au s e i n t h i s c a s e
[Intermessage’s] proposed theory of damages
is consistent w ith its theory of liability.
[Intermessage’s] expert may not have an exact
measure of damages, but as the Comcast court
acknowledges, at this stage of class certification
an exact measure is not required. Id.
The court need only probe the underlying
merits of plaintiff’s claim for the purposes of
determining whether plaintiff has satisfied the
prerequisites of class certification. Stammco,
L.L.C. v. United Tel. Co. of Ohio, 136 Ohio
St.3d 231, 242, 2013-Ohio-3019, 994 N.E.2d 408.
[Intermessage] is pursuing this claim pursuant
to [R.C. 4905.61], which allows person, firm
or corporation injured by public utility’s price

38a
Appendix B
discrimination to seek damages. The PUCO
already determined that [Ameritech] engaged
in price discrimination. [Intermessage] must
prove injury in order to establish liability.
Whether [Intermessage] can provide working
damages model goes directly to the merits of
[Intermessage’s] claim. While class brought
pursuant to [R.C. 2905.61] must prove damages
to prevail on the merits, such proof is not
prerequisite to class certification. Predominance
“requires showing that questions common to
the class predominate, not that those questions
will be answered, on the merits, in favor of the
class.” [Amgen Inc. v. Connecticut Retirement
Plans Trust Funds, 133 S.Ct. 1184, 1191, 185
L.Ed.2d 308 (2013).]
Moreover, [Intermessage] need not prove that
each element of claim can be established by classwide proof. The rule requires “that common
questions predominate over any question
affecting only individual class members.”
Glazer v. Whirlpool Corp. (In re Whirlpool
Corp. Front-Loading Washer Prods. Liab.
Litig.), 722 F.3d 838, 860-61 (6th Cir.2013),
quoting Amgen [at 1196] (internal quotation
omitted) (emphasis in original). Comcast does
not abrogate existing case law dictating that the
court should not delve too deeply into the merits
of plaintiff’s claim at the class certification
stage, of the litigation. Stammco, 136 Ohio St.3d
at 242. Moreover, “[w]hether mathematical

39a
Appendix B
formula could be used to calculate individual
damages is irrelevant because the need to
calculate damages individually, by itself, is
not reason to deny class certification.” Hoang
v. E*Trade Group, Inc., 151 Ohio App.3d 363,
2003-Ohio-301, ¶ 21, (8th Dist.), jurisdictional
motion overruled, 99 Ohio St.3d 1437 (8th
Dist.2003).
***
[Intermessage’s] claims in this case are
common to the class. [Intermessage’s] theory
of liability consists of whether [Ameritech’s]
anti-competitive conduct affected the market
and proximately caused retail cellular prices to
be artificially inflated. The damages theory is
the difference between what retail customers
actually paid for cellular service and what
retail customers should have paid but-for
[Ameritech’s] anti-competitive conduct. Dr.
Gale’s report proposes a model that could
be adapted to measure class-wide damages
resulting from [Intermessage’] only theory of
liability.
Although Dr. Gale does not provide an exact
model for measuring damages, the court
will have an opportunity through the factual
development of the case to consider whether
the damages formula can be established and
utilized. Also, [Intermessage] will be subject to

40a
Appendix B
summary judgment if it is not able to establish
damages model. Finally, the court may alter or
amend its certification of the class at any time
prior to final order. Civ. R. 23(C)(1)(c).
[A m e r it e c h] a dd it ion a l ly a r g ue s t h at
determination of injury in fact would require
an individual by individual review of each
class member claim and that this fails the
predominance requirement of class certification.
In fact, Dr. Gale testified at his deposition “[i]f
wanted to determine the damages to particular
individual, would have to go and find out what
they paid, would have to go and find out how
they would choose among alternatives, and
then would have to go and make prediction
based on the alternatives that were available
to them in the but-for world, which one of those
alternatives they would choose. Then I could
make an estimation of the damages for that
individual.” Gale Dep. at 104:2-10.
However, individualized damages are not fatal
to class certification because predominance
focuses on liability, rather than damages.
Ojalvo v. Board of Trustees of Ohio State Univ.,
12 Ohio St.3d 230, 232[, 466 N.E.2d 875] (1984).
It is not necessary for a plaintiff to prove “that
each element of claim can be established by
classwide proof: What the rule does require
is that common questions predominate over
any questions affecting only individual class

41a
Appendix B
members.” [Glazer, 722 F.3d at 858, quoting
[Amgen, 133 S.Ct. at 1196], (internal quotation
omitted) (emphasis in original).
To clarify, if common liability issues predominate
over issues of individual liability; or damages,
then the predominance requirement is satisfied
even though the actual damages may be
individualized. Here, the issue of whether
[Ameritech’s] anti-competitive conduct affected
the market and proximately caused retail
cellular prices to be artificially inflated is
common to the class.
[Intermessage] has demonstrated that the
common liability issues predominate over
individual claims of class members and has
satisfied the predominance requirement for
class certification.
Superiority: Finally, this case satisfies the
superiority requirement for class certification.
The superiority criterion is satisfied where “the
efficiency and economy of common adjudication
outweigh the difficulties and complexity of
individual treatment of class members claims.”
[Warner, 36 Ohio St.3d at 96, 521 N.E.2d
1091]. “[I]n determining whether class action
is superior method of adjudication, the court
must make comparative evaluation of the other
processes available to determine whether
class action is sufficiently effective to justify

42a
Appendix B
the expenditure of judicial time and energy
involved therein.” Westgate Ford Truck Sales,
Inc. v. FordMotor Co., 8th Dist. Cuyahoga No.
86596, 2007-Ohio-4013, ¶ 78, quoting [Schmidt,
15 Ohio St.3d at 313, 473 N.E.2d 822.] (internal
quotations omitted). Class certification should
be granted where “[r]epetitious adjudication of
liability, utilizing the same evidence over and
over, could be avoided.” [Marks, 31 Ohio St.3d
at 204, 509 N.E.2d 1249].
In the instant case, class certification will permit
class-wide adjudication of all issues bearing
upon [Ameritech’s] liability. Without class
certification, adjudication of class members
claims would require tens of thousands of
individual suits with concomitant duplications
of costs, attorneys’ fees, and demands upon
court resources. Ojalvo, supra, 12 Ohio St.3d
at 235 (a class action is “the ideal means of
adjudicating in single proceeding what might
other w ise become three thousand to six
thousand separate administrative actions”).
Similar benefits will accrue to [Ameritech]
through avoidance of multiple suits and multiple
jury determinations.
Moreover, if class members were required to
pursue their claims individually, the potential
for recovery likely would be outweighed by
the cost of investigation, discovery, and expert
testimony. Class certification overcomes the

43a
Appendix B
lack of incentive individuals would face in
attempting to recover small amounts with
individual actions. [Hamilton, 82 Ohio St.3d
67 at 80, 694 N.E.2d 442]. The aggregation
of class members claims in class action will
ensure there is “a forum for the vindication of
rights” that is economical enough to pursue.
Cope v. Metro. Life Ins. Co., 82 Ohio St.3d 426,
431, 1998-Ohio-405, 696 N.E.2d 1001, quoting
Hamilton [at 80] (1998) (internal quotations
omitted).
Based on the whole of the parties’ submissions
and the evidence presented, class action
is the most efficient means of adjudicating
[A mer it ech’s] a l leged l iabi l ity a nd the
damages allegedly caused to the proposed
class members. A class action will avoid the
repetitious adjudication of liability and is
sufficiently effective as to justify the judicial
time and energy involved. [Intermessage] has
satisfied the superiority requirement for class
certification.
We agree with the detailed findings of the trial court.
Intermessage has satisfied the predominance, typicality,
superiority, and adequacy requirements for class
certification. Intermessage’s claim against Ameritech
arises from the same events, practices, and conduct that
give rise to the claims of every other class member, and the
claims of each class member are based on the same legal
theory. Furthermore, the PUCO has already determined

44a
Appendix B
that Ameritech engaged in price discrimination. In the
instant case, Intermessage is pursuing its claim under
R.C. 4905.61, which allows a corporation injured by
public utility’s price discrimination to seek damages.
In support of its predominance contention, Ameritech’s
relies on Felix v. Ganley Chevrolet, Inc., 145 Ohio St.3d
329, 2015-Ohio-3430, 49 N.E.2d 1224 and Ford Motor
Credit v. Agrawal, 8th Dist. Cuyahoga No. 103667,
2016-Ohio-5928, and argues that Intermessage did not
suffer any injuries because it passed the costs on to its
customers. 2 The court found, and we agree, that the
issue of whether Ameritech’s anticompetitive conduct
affected the market and proximately caused retail cellular
prices to be artificially inflated is common to the class.
If common liability issues predominate over issues of
individual liability or damages, then the predominance
requirement is satisfied even though the actual damages
may be individualized.
We are mindful that
due deference must be given to the trial court’s
decision. A trial court that routinely handles
case-management problems is in the best
2. Felix and Ford Motor Credit stand for the proposition that
all class members must be in fact injured by defendant’s actions.
Felix was an Ohio Sales Consumer Practices Act (“OSCPA”)
case that carried an extra burden of proof for the plaintiff. In
Ford Motor Credit, this court found that individualized inquiry is
necessary to determine injury. Id. at ¶ 30. These cases are factually
distinguishable as the instant case does not involve the OSCPA and
the record demonstrates an injury to all class members.

45a
Appendix B
position to analyze the difficulties which can
be anticipated in litigation of class actions.
* * * A finding of abuse of discretion * * * should
be made cautiously.
Marks, 31 Ohio St.3d at 201, 509 N.E.2d 1249.
Here, the trial court presided over the instant case
for over 13 years and concluded that Intermessage
established the requirements to maintain a class action
under Civ.R. 23. In doing so, the trial court conducted a
19-page analysis into whether the prerequisites for class
certification under Civ.R. 23 have been satisfied. Cognizant
of the fact that a class-action certification does not go to
the merits of the action, the trial court acknowledged that
it will have an opportunity to consider whether damages
can be established, summary judgment is possible if
Intermessage is not able to establish damages, and the
court’s ability to alter or amend its certification of the
class at any time prior to final order.
Therefore, based on the foregoing, we find that the
trial court did not abuse its discretion in certifying the
class in the instant case.
The sole assignment of error is overruled.
Accordingly, judgment is affirmed.
It is ordered that appellees recover of appellant costs
herein taxed.

46a
Appendix B
The court finds there were reasonable grounds for
this appeal.
It is ordered that a special mandate issue out of this
court directing the common pleas court to carry this
judgment into execution.
A certified copy of this entry shall constitute the
mandate pursuant to Rule 27 of the Rules of Appellate
Procedure.
/s/				
M A RY EI L EEN K I L B A N E ,
JUDGE
/s/				
KATHLEEN ANN KEOUGH, A.J.
and ANITA LASTER MAYS, J.,
CONCUR

47a
Appendix B
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
Case No.: CV-03-517318
CINDY SATTERFIELD, et al.,
Plaintiff,
v.
AMERITECH MOBILE COMMUNICATIONS, INC.,
et al.,
Defendant.
Judge: JOSE A. VILLANUEVA
JOURNAL ENTRY
PLAINTIFF’S MOTION FOR CLASS CERTIFICATION
IS GRANTED.
/s/				
Judge Signature
2/9/2016			
Date

48a
Appendix B
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
CASE NO. CV-03-517318
CINDY SATTERFIELD, ETC.,
Dismissed Plaintiff,
and
INTERMESSAGE COMMUNICATIONS,
Remaining Plaintiff, on behalf of Itself and
All Other Persons Similarly Situated
vs.
AMERITECH MOBILE COMMUNICATIONS,
Dismissed Defendant, et al.,
and
CINCINNATI SMSA LIMITED PARTNERSHIP,
Remaining Defendant.
JUDGE JOSE A. VILLANUEVA

49a
Appendix B
ORDER GRANTING CLASS CERTIFICATION
José A. Villanueva, J.:
This case comes before the court on plaintiff
Intermessage Communications’ Motion for Class
Cer ti f ication aga inst Cincinnati SMSA Limited
Partnership. Plaintiff seeks to certify this action as a
class under Civ. R. 23 on behalf of “all retail subscribers
of Cincinnati SMSA Limited Partnership who purchased
service with an Ohio area code during the period October
18, 1993 through September 8, 1995.”1
The parties have briefed the issues and the court has
considered all arguments. For the following reasons, the
court grants plaintiff’s Motion for Class Certification.
RELEVANT FACTS
Plaintiff claims it was damaged by defendant’s
unlawful price discrimination and violations of the Public
Utilities Commission of Ohio (hereinafter “PUCO”).
Plaintiff brings this suit pursuant to R.C. § 4905.61.
This case originates from a 2001 PUCO decision,
Westside Cellular, Inc. d/b/a/ Cellnet v. GTE Mobilnet
et al., PUCO Case No. 93-1758-RC-CSS, 2001 Ohio PUC
1. Ohio Civil Rule 23 was amended effective July 1, 2015. The
prior iteration of Civ. R. 23 is substantively identical such that the
case law interpreting and applying the earlier provisions of those
sections and the parties’ prior submissions on class certification can
be considered pursuant to the amended Civ. R. 23.

50a
Appendix B
LEXIS 18. The PUCO case was initiated by Cellnet
against several wholesale cellular providers in Ohio,
including defendant. The 2001 PUCO decision found that
defendant, dba Ameritech Mobile, committed numerous
acts prohibited by R.C. § 4905 and the wrongdoing
commenced October 18, 1993.
Specifically, PUCO found defendant in violation of the
PUCO’s order regarding the separation of defendant’s
wholesale and retail operations. Defendant’s practice of
establishing wholesale rates for nonaffiliated carriers
by first consulting with its retail employees relative
to the potential impact on its retail business violated
PUCO’s order requiring nondiscriminatory treatment of
nonaffiliated wholesale customers.
Plaintiff’s theory of liability is that Ohio retail cellular
customers paid higher prices due to defendant’s wholesale
price discrimination. Under R.C. § 4905.61, if a public
utility violates any act prohibited by R.C. § 4905, such
public utility is liable to the person injured thereby in
treble damages. Plaintiff now seeks class certification.
Plaintiff defines the class as “all retail subscribers of
Cincinnati SMSA Limited Partnership who purchased
service with an Ohio area code during the period October
18, 1993 through September 8, 1995.”
CLASS ACTION STANDARD OF REVIEW
AND ANALYSIS
In considering a motion to certify a class, a trial
court must assume the truth of the allegations in the

51a
Appendix B
complaint. Any doubts a trial court may have as to whether
the elements of the class certification have been met
should be resolved in favor of upholding the class. Nagel
v. Huntington Nat’l Bank, 179 Ohio App. 3d 126, 131,
2008-Ohio-5741, f 10, 900N.E.2d 1060 (8th Dist.), quoting
Rimedio v. Summacare, 172 Ohio App.3d 639, 644, 2007Ohio-3244, 876 N.E.2d 986 (9th Dist.); Baughman v. State
Farm Mut. Ins. Co., 88 Ohio St.3d 480, 487, 2000-Ohio-397,
727 N.E.2d 1265.
Compliance with Civ. R. 23 cannot be presumed from
allegations in a complaint. Cullen v. State Farm Mut. Ins.
Co., 137 Ohio St.3d 373, 2013-Ohio-4733, 999 N.E.2d 614,
U 34. Rather, “the analysis requires the court to resolve
factual disputes relative to each requirement and to find,
based upon those determinations, other relevant facts,
and the applicable legal standard, that the requirement is
met.” Id. at ¶ 16. However, “[t]he office of a Rule 23(b)(3)
certification ruling is not to adjudicate the case; rather,
it is to select the ‘metho[d]’ best suited to adjudication
of the controversy ‘fairly and efficiently.’” Amgen Inc. v.
Conn. Ret. Plans & Trust Funds, 133 S.Ct. 1184, 1191,
185 L.Ed.2d 308 (2013).
“Pursuant to Civ. R. 23, plaintiffs must establish
seven prerequisites in order to certify a class action:
(1) an identifiable and unambiguous class must exist,
(2) the named representatives of the class must be class
members, (3) the class must be so numerous that joinder
of all members of the class is impractical, (4) there must be
questions of law or fact that are common to the class, (5)
the claims or defenses of the representative parties must

52a
Appendix B
be typical of the claims and defenses of the members of
the class, (6) the representative parties must fairly and
adequately protect the interests of the class, and (7) one of
the three requirements of Civ. R. 23(B) must be satisfied.”
Stammco, L.L.C. v. United Tel. Co. of Ohio, 136 Ohio St.3d
231, 2013-Ohio-3019, 994 N.E.2d 408, ¶ 19, citing Warner
v. Waste Mgmt., Inc., 36 Ohio St.3d 91, 94-96, 521 N.E.2d
1091 (1988).
Of the Civ. R. 23(B) requirements, only subsection
(3) is applicable to the case at hand. This provision states
that a class action may be allowed if the questions of law
or fact common to class members predominate over any
questions affecting only individual members, and that a
class action is superior to other available methods for fairly
and efficiently adjudicating the controversy. 2
“The burden of establishing that a cause of action
merits treatment as a class action rests squarely on the
party bringing suit.” State, ex rel. Ogan v. Teater, 54 Ohio
St.2d 235, 247, 375 N.E.2d 1233 (1978). That burden is
satisfied by a preponderance of the evidence. E.g., Warner,
supra, 36 Ohio St.3d at 94; accord, Cullen v. State Farm
Mut. Ins. Co., 137 Ohio St.3d 373, 2013-Ohio-4733, 999
N.E.2d 614, If 15.
2. For this analysis the court should consider (a) the class
members’ interests in individually controlling the prosecution
or defense of separate actions; (b) the extent and nature of any
litigation concerning the controversy already begun by or against
class members; (c) the desirability or undesirability of concentrating
the litigation of the claims in the particular forum; and (d) the likely
difficulties in managing a class action.

53a
Appendix B
It is the court’s duty to conduct a rigorous analysis
when determining whether to certify a class pursuant to
Civ. R. 23. Cullen, 137 Ohio St.3d at 379. This rigorous
analysis requires the court to resolve factual disputes
relative to each requirement and to find, based upon those
determinations, other relevant facts, and the applicable
legal standard, that the requirement is met. Id. Although
the court should not conduct a trial on the merits as part
of a class action certification analysis, deciding whether a
claimant meets the burden for class certification requires
the court to consider what will have to be proved at trial
and whether those matters can be presented by common
proof. Id.
Defendant does not challenge plaintiff ’s ability
to prove the first four criteria of class certification:
identifiability, membership, numerosity, and commonality.
Defendant argues plaintiff cannot satisfy its burden for
class certification with respect to the typicality, adequacy,
predominance, and superiority requirements of Civ. R. 23.
In conducting its rigorous analysis, the court considers
all criteria for class certification.
Identifiability: This case satisfies Civ. R. 23(A)(1),
requiring that an identifiable and unambiguous class
exist. The identifiability criterion for class certification
simply means that the definition of the class must be
“sufficiently definite so that it is administratively feasible
for the court to determine whether a particular individual
is a member.” Hamilton v. Ohio Savings Bank, 82 Ohio
St.3d 67, 71-72, 1998-Ohio-365, 694 N.E.2d 442 (1998). It
is required that the class definition be precise enough “to

54a
Appendix B
permit identification within a reasonable effort.” Id. at
72. “Civ[il] R[ule] 23 does not require a class certification
to identify the specific individuals who are members so
long as the certification provides a means to identify such
persons.” Planned Parenthood Ass ’n v. Project Jericho,
52 Ohio St.3d 56, 63, 556 N.E.2d 157 (1990). “The fact that
members may be added or dropped during the course
of the action is not controlling. The test is whether the
means is specified at the time of certification to determine
whether a particular individual is a member of the class.”
Id.
Plaintiffs motion seeks certification of a class defined
as “all retail subscribers of Cincinnati SMSA Limited
Partnership who purchased service with an Ohio area code
during the period October 18, 1993 through September 8,
1995.” The evidence of record shows whether an individual
is, or is not, a member of the class can be objectively
determined either from defendant’s own records or from
the documents and information supplied by the putative
class member. The definition of the class is sufficiently
precise that the court can readily determine “whether a
particular individual is a member of the class.” Hamilton,
supra, 82 Ohio St.3d at 73. The identifiability criterion for
class certification is satisfied in this action.
Membership: This case satisfies Civ. R. 23(A)(1),
requiring that the named plaintiff be a member of the
class as defined. The evidence of record shows plaintiff
was a retail subscriber of defendant Cincinnati SMSA
Limited Partnership (doing business under its trade
name of Ameritech Mobile), which purchased service with

55a
Appendix B
an Ohio area code during the period October 18, 1993
through September 8, 1995, and, therefore, during the
class period. Thus, the named plaintiff and proposed class
representative is a member of the class as defined and,
therefore, the membership criterion for class certification
is satisfied in this action.
Numerosity: This case satisfies Civ. R. 23(A)(1),
requiring that the class be so numerous that joinder of
all members is impracticable. “The rule itself does not
specify the minimum class size which will render joinder
impracticable.” Vinci v. Am. Can Co., 9 Ohio St.3d 98, 99,
459 N.E.2d 507 (1984). However, “subclasses have been
certified with as few as twenty-three members.” Marks v.
C.P. Chem. Co., 31 Ohio St.3d 200, 202, 509 N.E.2d 1249
(1987). Generally, “[i]f the class has more than forty people
in it, numerosity is satisfied.” Warner v. Waste Mgmt.,
Inc., 36 Ohio St.3d 91, 97, 521 N.E.2d 1091 (1988).
In this case, the class would encompass all retail
subscribers of Cincinnati SMSA who purchased service
with an Ohio area code during a two-year period.
Commonality: This case satisfies Civ. R. 23(A)(2),
requiring that there be questions of law or fact common
to the class. Commonality does not “demand that all the
questions of law or fact raised in the dispute be common
to all the parties.” Marks, supra, 31 Ohio St.3d at 202.
So long as there is a common issue of law or of fact, the
commonality criterion is satisfied. Warner, supra, 36
Ohio St.3d at 97. Civil Rule 23(A)(2) “clearly does not
require commonality with respect to damages but merely
that the basis for liability is a common factor for all class

56a
Appendix B
members.” Ojalvo v. Bd. of Trustees of Ohio State Univ.,
12 Ohio St.3d 230, 235, 466 N.E.2d 875 (1984). In the
instant case, virtually all the issues presented by the
named plaintiff are common to the class.
Typicality: This case satisfies Civ. R. 23(A)(3),
requiring that the claims or defenses of the representative
parties are typical of the claims or defenses of the class. To
satisfy this requirement, the claims of the named plaintiff
“need not be identical” to those of other class members.
Planned Parenthood, supra, 52 Ohio St.3d at 64.
[A] plaintiff’s claim is typical if it arises from the
same event or practice or course of conduct that
gives rise to the claims of other class members,
and if his or her claims are based on the same
legal theory. When it is alleged that the same
unlawful conduct was directed at or affected
both the named plaintiff and the class sought
to be represented, the typicality requirement
is usually met irrespective of varying fact
patterns which underlie individual claims.
Baughman v. State Farm Mut. Auto. Ins. Co., 88 Ohio
St.3d 480, 485, 2000-Ohio-397, 727 N.E.2d 1265 (2000),
quoting 1 Newberg on Class Actions (3 Ed. 1992) Sec. 3.13
(internal quotation omitted). The purpose of typicality is
to protect absent class members and promote economy of
class action by ensuring the named plaintiffs’ interests
are substantially aligned with the class. Typicality is
met where there is no express conflict between the class
representatives and the class. Hamilton, supra, 82 Ohio
St.3d at 77.

57a
Appendix B
Defendant argues plaintiff is uniquely atypical
because it passed on the entire cost of cellular service it
purchased to its customers. Plaintiff was a manufacturer
and seller of backup panels for alarm systems. Plaintiff
purchased cellular service for the backup panels from
defendant, and then sold the panels to its customers. Thus,
plaintiff did not suffer the overcharge damages claimed
by other class members.
However, this argument constitutes a “passing-on”
defense, rebutted by the well-established rule that an
offense is complete at the time of injury, regardless of the
victim’s later acts in mitigation. Hanover Shoe, Inc., v.
Onited Shoe Machine Corp., 392 U.S. 481 (1968). Plaintiff
purports that the class is comprised of retail purchasers
of cellular service, rather than retail users. Additionally,
merely because plaintiff passed on the overcharge to its
customers does not establish a conflict between plaintiff
and the other class members.
The evidence of record shows plaintiff’s claim against
defendant arises from the same events, practices, and
conduct that give rise to the claims of every other class
member, and the claims of each class member are based on
the same legal theory. Plaintiff alleges the same unlawful
conduct was directed at or affected the named plaintiff
and every other member of the class. More importantly,
there is no conflict, express or otherwise, between the
named plaintiff and the class. The typicality criterion for
class certification is satisfied in this action.

58a
Appendix B
Adequacy: This case also satisfies Civ. R. 23(A)
(4), requiring that the representative parties fairly
and adequately protect the interests of the class. This
requirement “is divided into a consideration of the
adequacy of the representatives and the adequacy of
counsel.” Warner v. Waste Management, Inc., 36 Ohio
St.3d 91, 98, 521 N.E.2d 1091 (1988). Defendant does not
contest the adequacy of plaintiff’s counsel to represent the
class, but defendant does contend plaintiff is an inadequate
class representative.
A named plaintiff is deemed adequate so long as his
or her interest is not antagonistic to the interest of other
class members. Hamilton, supra, 82 Ohio St.3d at 77-78;
Warner, supra, 36 Ohio St.3d at 98; Marks, supra, 31 Ohio
St.3d at 203. The evidence of record shows the interests
of plaintiff are not antagonistic to the interests of any
other member of the class. Plaintiff was a retail subscriber
and purchased service with an Ohio area code during the
relevant time period. Plaintiff’s interest is compatible with
the interest of other class members who were also retail
subscribers.
Defendant argues plaintiff is an inadequate class
representative because plaintiff may be distracted by an
arguable defense peculiar to it. Specifically, plaintiff is
a dissolved corporation that failed to bring this matter
as speedily as practicable to complete the winding up
of its affairs as required by R.C. § 1701.88(D). Plaintiff
was voluntarily dissolved in March 2001 and brought the
present action in December 2003. However, there is no
strict rule requiring a dissolved corporation to complete

59a
Appendix B
the winding up of its affairs by a set date. Pursuant to
R.C. § 1701.88(A), a corporation may do such acts as are
required to wind up its affairs and for this purpose the
dissolved corporation shall continue as a corporation for
a period of five years from the dissolution. Plaintiff filed
this lawsuit within three years of its dissolution. The
defendant’s argument has no merit.
Also, defendant now asserts plaintiff is an inadequate
class representative because plaintiff’s status as a dissolved
corporation means it lacks standing to bring this claim.
Standing involves the question of whether a party has a
sufficient stake in an otherwise justiciable controversy
to obtain judicial resolution of that controversy. Fed.
Home Loan Mortg. Corp. v. Schwartzwald, 134 Ohio St.
3d 13, 17, 2012-Ohio-5017, 979 N.E.2d 1214. The standing
argument is similar to defendant’s argument that plaintiff
failed to bring this matter as speedily as practicable to
complete the winding up of its affairs as required by R.C.
§ 1701.88(D). Both arguments invoke the Ohio statute
dictating how a voluntarily dissolved corporation may
bring a lawsuit.
Under Ohio law, a dissolved corporation may bring a
lawsuit if it is brought as part of the company’s winding
up of its affairs. Under R.C. § 1701.88(A), “when a
corporation is dissolved voluntarily ... the corporation
shall cease to carry on business and shall do only such
acts as are required to wind up its affairs . . . and for
such purposes it shall continue as a corporation for a
period of five years from the dissolution, expiration, or
cancellation.” Pursuant to R.C. § 1701.88(B), the voluntary

60a
Appendix B
dissolution of a corporation shall not eliminate any remedy
available to the corporation prior to its dissolution if
the corporation brings an action within the time limits
otherwise permitted by law.
In this case, plaintiff was dissolved in March 2001
and filed this lawsuit in December 2003. Plaintiff seeks
a remedy arising from conduct which occurred between
October 18, 1993 and September 8, 1995. The PUCO
decision finding that defendant had engaged in price
discrimination was released on January 18, 2001. Both
the defendant’s alleged conduct and the PUCO decision
occurred prior to the corporation’s dissolution. There is no
dispute the case was brought within the applicable statute
of limitations. Accordingly, plaintiff is an adequate class
representative and will not be distracted by an arguable
defense peculiar to it.
The named-plaintiff portion of the adequacy criterion
for class certification has become of lesser importance
than the attorney portion of the criterion. Unifund CCR
Partners v. Young, 7th Dist. Mahoning No. 11-MA-113,
2013-Ohio-4322, ¶ 51; accord, Westgate Ford Truck
Sales, Inc. v. Ford Motor Co., 8th Dist. Cuyahoga No.
86596, 2007-0hio-4013, ¶ 69. The evidence presented,
including the affidavits of plaintiff’s proposed co-lead
counsel Thomas Theado, Randy Hart, and Mark Griffin,
demonstrates that these attorneys have the expertise to
adequately represent the interests of the class. Plaintiff
has satisfied the adequacy criterion for class certification.

61a
Appendix B
Predominance: Questions of law and fact common
to the members of the class must predominate over any
questions affecting individual members. Predominance is
met when there exists generalized evidence which proves
or disproves an element on a simultaneous, class-wide
basis, since such proof obviates the need to examine each
class member’s individual position. Baughman v. State
Farm Mus. Automobile Ins. Co., 88 Ohio St. 3d 480, 489
(2000).
I n det er m i n i ng whet her com mon que st ion s
predominate, “the focus of the inquiry is directed
toward the issue of liability.” Cicero v. U.S. Four, Inc.,
10th Dist. Franklin No. 07AP-310, 2007-0hio-6600, ¶ 38.
The predominance requirement is satisfied where the
questions of law or fact common to the class represent a
significant aspect of the case and are able to be resolved for
all members of the class in a single adjudication. Schmidt v.
AVCO Corp., 15 Ohio St.3d 310, 313,473 N.E.2d 822 (1984).
The central issue of this case is to what extent
defendant is liable to plaintiff for defendant’s wholesale
price discrimination. In Westside Cellular, Inc. v. GTE
Mobilnet, et al., Case No. 93-1758-RC-CSS, 3 the PUCO
found defendant had engaged in unlawful discriminatory
pricing practices. Under R.C. § 4905.61, a public utility
which engages in price discrimination is liable to any
person, firm, or corporation injured by such violation.
3. Affirmed by the Ohio Supreme Court in Westside Cellular
Inc. v. Pub. Util. Comm., 98 Ohio St.3d 165, 2002-Ohio-7119, 781
N.E.2d 199, and in Cincinnati SMSA L.P. v. Pub. Util. Comm., 98
Ohio St.3d 282, 2002-Ohio-7235, 781 N.E.2d 1012.

62a
Appendix B
The issues presented by plaintiff’s R.C. § 4905.61
claims are common to the proposed class — e.g., whether
defendant’s conduct affected the market and proximately
caused retail cellular prices to be artificially inflated;
whether defendant’s conduct prevented resellers from
increasing their market share by lowering their prices;
whether defendant’s conduct prevented other resellers
from entering the Ohio market; and whether and to what
extent defendant’s conduct proximately caused injury
to the members of the class. These issues “represent a
significant aspect of the case” and are “able to be resolved
for all members of the class in a single adjudication.”
Schmidt, supra, 15 Ohio St.3d at 313. All of the issues
bearing upon defendant’s liability are common to the class
as a whole. These issues can be adjudicated in a single,
class-wide trial and predominate over any individual
issues that might remain.
Plaintiff ’s expert Dr. Gale opined that without
discriminatory pricing, resellers would have been more
competitive, whether as a group because there are more
of them, or because a particular reseller became more
competitive, causing prices to decline. The price decline
would have impacted all consumers. Gale Dep. at 67.
Dr. Gale further stated: “It is my opinion that the
alleged acts by defendants had a class-wide impact, and
that there are feasible and widely-used methodologies for
showing the impact through common proof.” Report of
John M. Gale (“Gale Report”), at p. 2. Dr. Gale identified
one possible model for measuring damages — the
“McFadden/Woroch model” developed for the damages

63a
Appendix B
litigation arising from the PUCO determination.4 During
this litigation, Dr. Gale assisted Professors McFadden and
Woroch with “preparing an expert report which included
a damage estimate for Cellnet [aka Westside Cellular, the
plaintiff in the PUCO case] based on a standard model of
competition and consumer demand well documented in
the economics literature.” Gale Report at p. 4.
Dr. Gale described the McFadden/Woroch model as
follows: “[t]he damages model employed by Professors
McFadden and Woroch estimated, for each year in each
of seven Ohio SMSAs [Standard Metropolitan Statistical
Areas], retail prices and sales for each of the two facilitiesbased cellular providers and Cellnet but for the price
discrimination. The model relied upon data for costs,
revenues, subscribers, and prices provided by defendants
and Cellnet. In addition, the model used estimates of
consumer demand for wireless services published in
the economics literature. The methodology did not vary
across SMSAs and years. During the [Cellnet] litigation,
variations of the damages model were introduced by
one defendant’s expert that included entry of multiple
resellers at the non-discriminatory wholesale prices.”
Gale Report at p. 4. As explained by Dr. Gale, “[t]hese
models, relied upon by both Cellnet’s and defendants’
experts demonstrate not only that a model which shows
class-wide impact is available, but that such a model has
already been developed and used.” Id

4. Westside Cellular, Inc. d/b/a/ Cellnet v. GTE Mobilnet et
al., PUCO Case No. 93-1758-RC-CSS, 2001 Ohio PUC LEXIS 18.

64a
Appendix B
Defendant arg ues the cour t must deny class
certification because Dr. Gale does not propose a definite
method allocating damages among the proposed class.
Defendant challenges Dr. Gale’s Report because, as Dr.
Gale admits, he has never used the McFadden/Woroch
model to determine class-wide impact and damages in
this case. In fact, the model would have to be adapted to
show class-wide impact across the retail market. Gale
Dep. p. 69.
Defendant relies principally on the United States
Supreme Court’s decision in Comcast Corp. v. Behrend,
133 S.Ct. 1426 (2013). Defendant argues that Comcast
stands for the proposition that a plaintiff must provide
a damages model susceptible to measurement across
the entire class in order to satisfy the predominance
requirement. This reading of the Comcast holding is
unduly broad.
In Comcast, the plaintiffs filed a class action lawsuit
alleging Comcast had engaged in a “clustering” scheme
through unlawful swap agreements to monopolize
cable services in the Philadelphia cluster, and that this
conduct injured Comcast’s subscribers by eliminating
competition and holding prices for cable services above
competitive levels. The District Court found only one of
the plaintiffs’ four theories of injuries was susceptible
to class-wide proof and certified the class on that basis.
However, the plaintiffs’ expert model was not created
to measure damages resulting from the only theory of
injury remaining. The Supreme Court reversed class
certification because although “calculations of damages

65a
Appendix B
need not be exact” at the class certification stage, any
model purporting to serve as evidence of damages in this
class action must measure only those damages attributable
to that theory. Comcast Corp., supra, 133 S.Ct. at 1433.
Comcast was unusual because the plaintiff’s damages
model was disconnected from the plaintiff’s theory of
liability. Comcast is distinguished because in this case
plaintiff’s proposed theory of damages is consistent with
its theory of liability. Plaintiff’s expert may not have an
exact measure of damages, but as the Comcast court
acknowledges, at this stage of class certification an exact
measure is not required. Id.
The court need only probe the underlying merits
of plaintiff’s claim for the purposes of determining
whether plaintiff has satisfied the prerequisites of class
certification. Stammco, L.L.C. v. United Tel. Co. of Ohio,
136 Ohio St. 3d 231, 242, 2013-Ohio-3019, 994 N.E.2d 408.
Plaintiff is pursuing this claim pursuant to R.C. § 4905.61,
which allows a person, firm or corporation injured by a
public utility’s price discrimination to seek damages.
The PUCO already determined that defendant engaged
in price discrimination. Plaintiff must prove injury in
order to establish liability. Whether plaintiff can provide
a working damages model goes directly to the merits of
plaintiff’s claim. While a class brought pursuant to R.C.
§ 2905.61 must prove damages to prevail on the merits,
such proof is not a prerequisite to class certification.
Predominance “requires a showing that questions common
to the class predominate, not that those questions will be
answered, on the merits, in favor of the class.” Amgen Inc.

66a
Appendix B
v. Connecticut Retirement Plans & Trust Funds, 133 S.
Ct. 1184, 1191 (2013).
Moreover, a plaintiff need not prove that each element
of a claim can be established by class-wide proof. The
rule requires “that common questions predominate over
any question affecting only individual class members.”
Glazer v. Whirlpool Corp. (In re Whirlpool Corp. FrontLoading Washer Prods. Liab. Litig.), 722 F.3d 838, 86061 (6th Cir. 2013), quoting Amgen, supra, 133 S. Ct. at
1196 (internal quotation omitted) (emphasis in original).
Comcast does not abrogate existing case law dictating
that the court should not delve too deeply into the merits
of plaintiff’s claim at the class certification stage of the
litigation. Stammco, 136 Ohio St. 3d at 242. Moreover, “[w]
hether a mathematical formula could be used to calculate
individual damages is irrelevant because the need to
calculate damages individually, by itself, is not a reason
to deny class certification.” Hoang v. E*Trade Group,
Inc., 151 Ohio App. 3d 363, 2003-Ohio-301, ¶ 21, (8th Dist.
2003), jurisdictional motion overruled, 99 Ohio St. 3d
1437 (8th Dist. 2003).
The court disagrees with defendant’s assertion that
Comcast stands for the proposition that a plaintiff is
required to demonstrate an exact measure of damages
at the time of class certification in order to meet the
predominance requirement. In fact, several District
Courts have limited the scope of Comcast. In Glazer v.
Whirlpool Corp., the Sixth Circuit concluded that Comcast
was “premised on existing class-action jurisprudence”
and that “it remained the ‘black letter rule’ that a class

67a
Appendix B
may obtain certification under Rule 23(b)(3) when liability
questions common to the class predominate over damages
questions unique to class members.” Glazer, supra, 722
F.3d at 860-61. In Roach v. T.L. Cannon Corp., 778 F.3d
401, 407 (2d Cir. 2015), the Second Circuit found that
“Comcast, then, did not hold that a class cannot be certified
under Rule 23(b)(3) simply because damages cannot be
measured on a classwide basis ... the Court did not hold
that proponents of class certification must rely upon a
classwide damages model to demonstrate predominance.”
Finally, Butler v. Sears, Roebuck & Co., 727 F.3d 796, 801
(7th Cir. 2013), held upon remand in light of Comcast, that
“the fact that damages are not identical across all class
members should not preclude class certification.”
Plaintiff’s claims in this case are common to the
class. Plaintiff’s theory of liability consists of whether
defendant’s anti-competitive conduct affected the market
and proximately caused retail cellular prices to be
artificially inflated. The damages theory is the difference
between what retail customers actually paid for cellular
service and what retail customers should have paid butfor defendant’s anti-competitive conduct. Dr. Gale’s report
proposes a model that could be adapted to measure classwide damages resulting from plaintiff’s only theory of
liability.
Although Dr. Gale does not provide an exact model for
measuring damages, the court will have an opportunity
through the factual development of the case to consider
whether the damages formula can be established and
utilized. Also, plaintiff will be subject to summary

68a
Appendix B
judgment if it is not able to establish a damages model.
Finally, the court may alter or amend its certification of
the class at any time prior to a final order. Civ. R. 23(C)
(1)(c).
Defendant additionally argues that a determination
of injury in fact would require an individual by individual
review of each class member’s claim and that this fails
the predominance requirement of class certification. In
fact, Dr. Gale testified at his deposition “[i]f I wanted to
determine the damages to a particular individual, I would
have to go and find out what they paid, I would have to go
and find out how they would choose among alternatives,
and then I would have to go and make a prediction based
on the alternatives that were available to them in the
but-for world, which one of those alternatives they would
choose. Then I could make an estimation of the damages
for that individual.” Gale Dep. at 104:2-10.
However, individualized damages are not fatal to class
certification because predominance focuses on liability,
rather than damages. Ojalvo v. Board of Trustees of Ohio
State University, 12 Ohio St. 3d 230, 232 & n.1 (1984).
It is not necessary for a plaintiff to prove “that each
element of a claim can be established by classwide proof:
What the rule does require is that common questions
predominate over any questions affecting only individual
class members.” Glazer v. Whirlpool Corp., 722 F.3d 838,
858 (6th Cir. 2013), quoting Amgen Inc. v. Connecticut
Retirement Plans & Trust Funds, 133 S. Ct. 1184, 1196
(2013) (internal quotation omitted) (emphasis in original).

69a
Appendix B
To clarify, if common liability issues predominate
over issues of individual liability or damages, then the
predominance requirement is satisfied even though the
actual damages may be individualized. Here, the issue
of whether defendant’s anti-competitive conduct affected
the market and proximately caused retail cellular prices
to be artificially inflated is common to the class.
Plaintiff has demonstrated that the common liability
issues predominate over individual claims of class
members and has satisfied the predominance requirement
for class certification.
Superiority: Finally, this case satisfies the superiority
requirement for class certification. The superiority
criterion is satisfied where “the efficiency and economy
of common adjudication outweigh the difficulties and
complexity of individual treatment of class members’
claims.” Warner v. Waste Management, Inc., 36 Ohio St.3d
91, 96, 521 N.E.2d 1091 (1988). “[I]n determining whether
a class action is a superior method of adjudication, the
court must make a comparative evaluation of the other
processes available to determine whether a class action is
sufficiently effective to justify the expenditure of judicial
time and energy involved therein.” Westgate Ford Truck
Sales, Inc. v. Ford Motor Co., 8th Dist. Cuyahoga No.
86596, 2007-Ohio-4013, ¶ 78, quoting Schmidt v. AVCO
Corp., 15 Ohio St.3d 310, 313, 473 N.E.2d 822 (1984)
(internal quotations omitted). Class certification should
be granted where “[repetitious adjudication of liability,
utilizing the same evidence over and over, could be
avoided.” Marks v. C.P. Chemical Co., 31 Ohio St.3d 200,
204, 509 N.E.2d 1249 (1987).

70a
Appendix B
In the instant case, class certification will permit classwide adjudication of all issues bearing upon defendant’s
liability. Without class certification, adjudication of class
members’ claims would require tens of thousands of
individual suits with concomitant duplications of costs,
attorneys’ fees, and demands upon court resources.
Ojalvo, supra, 12 Ohio St.3d at 235 (a class action is “the
ideal means of adjudicating in a single proceeding what
might otherwise become three thousand to six thousand
separate administrative actions”). Similar benefits will
accrue to defendant through avoidance of multiple suits
and multiple jury determinations.
Moreover, if class members were required to pursue
their claims individually, the potential for recovery likely
would be outweighed by the cost of investigation, discovery,
and expert testimony. Class certification overcomes the
lack of incentive individuals would face in attempting to
recover small amounts with individual actions. Hamilton
v. Ohio Savings Bank, 82 Ohio St.3d 67, 80, 694 N.E.2d 442
(1998). The aggregation of class members’ claims in a class
action will ensure there is “a forum for the vindication of
rights” that is economical enough to pursue. Cope v. Metro.
Life Ins. Co., 82 Ohio St.3d 426, 431, 1998-Ohio-405, 696
N.E.2d 1001, quoting Hamilton, supra, 82 Ohio St.3d at
80 (1998) (internal quotations omitted).
Based on the whole of the parties’ submissions and
the evidence presented, a class action is the most efficient
means of adjudicating the defendant’s alleged liability
and the damages allegedly caused to the proposed
class members. A class action will avoid the repetitious

71a
Appendix B
adjudication of liability and is sufficiently effective as to
justify the judicial time and energy involved. Plaintiff has
satisfied the superiority requirement for class certification.
CONCLUSION
The court g rants plaintiff ’s Motion for Class
Certification and certifies this case as a class action
pursuant to Civ. R. 23(A) and (B)(3) on behalf of “all retail
subscribers of Cincinnati SMSA Limited Partnership
who purchased service with an Ohio area code within
geographic areas in which the PUCO decision found
wholesale price discrimination during the period October
18, 1993 through September 8, 1995,” on all the remaining
claims, issues, and defenses presented in this action.
The court approves the named plaintiff, Intermessage
Communications, as class representative.
The court finds Hahn Loeser & Parks LLP by Dennis
Rose, Randy J. Hart LLP by Randy J. Hart, the Law
Offices of Mark Griffin by Mark D. Griffin, and Gary,
Naegele & Theado LLC by Thomas R. Theado, are
adequate to serve as co-lead class counsel as required
under Civ. R. 23(F)(1) and (4) as required by Civ. R. 23(F)
(2).
The court will withhold issuing further orders in this
matter consequent to class certification pending appeal
pursuant to R.C. § 2505.02(B)(5).
IT IS SO ORDERED.

72a
Appendix B
/s/				
JOSE A. VILLANUEVA, JUDGE
DATE: February 9, 2016

73a
Appendix B
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
Case No: CV-03-517318
CINDY SATTERFIELD, et al.,
Plaintiff,
AMERITECH MOBILE COMMUNICATIONS, INC.,
et al.,
Defendant.
Judge: JOSE A VILLANUEVA
JOURNAL ENTRY
DEFEN DA N T S A M ERI T ECH MOBILE
COMMUNICATIONS, LLC AND CINCINNATI SMSA
LIMITED PARTNERSHIP’n mS 05/30/2006 MOTION
FOR SUMMARY JUDGMENT ON THE PLEADINGS
IS DENIED.
/s/				
Judge Signature
9/29/06			
Date

74a
AppendixOF
C THE SUPREME
APPENDIX C — OPINION
COURT OF OHIO, DATED FEBRUARY 20, 2019
SUPREME COURT OF OHIO
2017-0684
SATTERFIELD
v.
AMERITECH MOBILE COMMUNICATIONS, INC.
February 20, 2019
Cuyahoga App. No. 104211, 2017-Ohio-928
CASE ANNOUNCEMENTS
RECONSIDERATION OF PRIOR DECISIONS
Reported at –––– Ohio St.3d –––– , 2018-Ohio-5023,
–––– N.E.3d –––– . On motion for reconsideration. Motion
denied.

75a
APPENDIX D — R.C.Appendix
§ 4905.61DTREBLE DAMAGES
R.C. § 4905.61
4905.61 Treble damages
If any public utility or railroad does, or causes to be
done, any act or thing prohibited by Chapters 4901., 4903.,
4905., 4907., 4909., 4921., 4923., and 4927. of the Revised
Code, or declared to be unlawful, or omits to do any act or
thing required by the provisions of those chapters, or by
order of the public utilities commission, the public utility
or railroad is liable to the person, firm, or corporation
injured thereby in treble the amount of damages sustained
in consequence of the violation, failure, or omission. Any
recovery under this section does not affect a recovery by
the state for any penalty provided for in the chapters.

76a
Appendix
E § 4905.26
APPENDIX
E — R.C.
WRITTEN COMPLAINTS
SUPREME COURT OF OHIO
R.C. § 4905.26
4905.26 Written complaints; hearing
Effective: March 23, 2015
Upon complaint in writing against any public utility
by any person, firm, or corporation, or upon the initiative
or complaint of the public utilities commission, that any
rate, fare, charge, toll, rental, schedule, classification, or
service, or any joint rate, fare, charge, toll, rental, schedule,
classification, or service rendered, charged, demanded,
exacted, or proposed to be rendered, charged, demanded,
or exacted, is in any respect unjust, unreasonable,
unjustly discriminatory, unjustly preferential, or in
violation of law, or that any regulation, measurement, or
practice affecting or relating to any service furnished by
the public utility, or in connection with such service, is, or
will be, in any respect unreasonable, unjust, insufficient,
unjustly discriminatory, or unjustly preferential, or
that any service is, or will be, inadequate or cannot be
obtained, and, upon complaint of a public utility as to any
matter affecting its own product or service, if it appears
that reasonable grounds for complaint are stated, the
commission shall fix a time for hearing and shall notify
complainants and the public utility thereof. The notice
shall be served not less than fifteen days before hearing
and shall state the matters complained of. The commission
may adjourn such hearing from time to time.

77a
Appendix E
The parties to the complaint shall be entitled to be
heard, represented by counsel, and to have process to
enforce the attendance of witnesses.
This section does not apply to matters governed by
Chapter 4913. of the Revised Code.

78a
F PROC. R. 23
APPENDIX F Appendix
— FED CIV.
CIV. R. RULE 23
(A) Prerequisites. One or more members of a class may
sue or be sued as representative parties on behalf of all
members only if:
(1) the class is so numerous that joinder of all members
is impracticable,
(2) there are questions of law or fact common to the class,
(3) the claims or defenses of the representative parties are
typical of the claims or defenses of the class, and
(4) the representative parties will fairly and adequately
protect the interests of the class.
(B) Types of Class Actions. A class action may be
maintained if Civ.R. 23(A) is satisfied, and if:
(1) prosecuting separate actions by or against individual
class members would create a risk of:
(a) inconsistent or varying adjudications with respect
to individual class members that would establish
incompatible standards of conduct for the party
opposing the class; or
(b) adjudications with respect to individual class
members that, as a practical matter, would be dispositive
of the interests of the other members not parties to the

79a
Appendix F
individual adjudications or would substantially impair
or impede their ability to protect their interests; or
(2) the party opposing the class has acted or refused to
act on grounds that apply generally to the class, so that
final injunctive relief or corresponding declaratory relief
is appropriate respecting the class as a whole; or
(3) the court finds that the questions of law or fact common
to class members predominate over any questions
affecting only individual members, and that a class
action is superior to other available methods for fairly
and efficiently adjudicating the controversy. The matters
pertinent to these findings include:
(a) the class members’ interests in individually
controlling the prosecution or defense of separate
actions;
(b) the extent and nature of any litigation concerning
the controversy already begun by or against class
members;
(c) the desirability or undesirability of concentrating
the litigation of the claims in the particular forum; and
(d) the likely difficulties in managing a class action.
(C) Certification Order; Notice to Class Members;
Judgment; Issues Classes; Subclasses.
(1) Certification order

80a
Appendix F
(a) Time to issue. At an early practicable time after a
person sues or is sued as a class representative, the
court shall determine by order whether to certify the
action as a class action.
(b) Defining the class; appointing class counsel. An
order that certifies a class action shall define the class
and the class claims, issues, or defenses, and shall
appoint class counsel under Civ.R. 23(F).
(c) Altering or amending the order. An order that grants
or denies class certification may be altered or amended
before final judgment.
(2) Notice.
(a) For (B)(1) or (B)(2) Classes. For any class certified
under Civ.R. 23(B)(1) or (B)(2), the court may direct
appropriate notice to the class.
(b) For (B)(3) Classes. For any class certified under Civ.R.
23(B)(3), the court shall direct to class members the
best notice that is practicable under the circumstances,
including individual notice to all members who can be
identified through reasonable effort. The notice shall
clearly and concisely state in plain, easily understood
language:
(i) the nature of the action;
(ii) the definition of the class certified;

81a
Appendix F
(iii) the class claims, issues, or defenses;
(iv) that a class member may enter an appearance
through an attorney if the member so desires;
(v) that the court will exclude from the class any
member who requests exclusion;
(vi) the time and manner for requesting exclusion;
and
(vii) the binding effect of a class judgment on
members under Civ.R. 23(C)(3).
(3) Judgment. Whether or not favorable to the class, the
judgment in a class action shall:
(a) for any class certified under Civ.R. 23(B)(1) or (B)
(2), include and describe those whom the court finds to
be class members: and
(b) for any class certified under Civ.R. 23(B)(3), include
and specify or describe those to whom the Civ.R. 23(C)(2)
notice was directed, who have not requested exclusion,
and whom the court finds to be class members.
(4) Particular issues. When appropriate, an action may
be brought or maintained as a class action with respect
to particular issues.
(5) Subclasses. When appropriate, a class may be divided
into subclasses that are each treated as a class under this
rule.

82a
Appendix F
(D) Conducting the Action.
(1) In General. In conducting an action under this rule,
the court may issue orders that:
(a) determine the course of proceedings or prescribe
measures to prevent undue repetition or complication
in presenting evidence or argument;
(b) require to protect class members and fairly conduct
the action giving appropriate notice to some or all class
members of:
(i) any step in the action;
(ii) the proposed extent of the judgment; or
(iii) the members’ opportunity to signify whether
they consider the representation fair and adequate,
to intervene and present claims or defenses, or to
otherwise come into the action;
(c) impose conditions on the representative parties or
on intervenors;
(d) require that the pleadings be amended to eliminate
allegations about representation of absent persons, and
that the action proceed accordingly; or
(e) deal with similar procedural matters.

83a
Appendix F
(2) Combining and Amending Orders. An order under
Civ.R. 23(D)(1) may be altered or amended from time to
time and may be combined with an order under Civ.R. 16.
(E) Settlement, Voluntary Dismissal, or Compromise.
The claims, issues, or defenses of a certified class may be
settled, voluntarily dismissed, or compromised only with
the court’s approval. The following procedures apply to a
proposed settlement, voluntary dismissal, or compromise:
(1) The court shall direct notice in a reasonable manner
to all class members who would be bound by the proposal.
(2) If the proposal would bind class members, the court
may approve it only after a hearing and on finding that it
is fair, reasonable, and adequate.
(3) The parties seeking approval shall file a statement
identifying any agreement made in connection with the
proposal.
(4) If the class action was previously certified under Civ.R.
23(B)(3), the court may refuse to approve a settlement
unless it affords a new opportunity to request exclusion to
individual class members who had an earlier opportunity
to request exclusion but did not do so.
(5) Any class member may object to the proposal if it
requires court approval under this division (E); the
objection may be withdrawn only with the court’s approval.

84a
Appendix F
(F) Class Counsel.
(1) Appointing class counsel. A court that certifies a class
shall appoint class counsel. In appointing class counsel,
the court:
(a) shall consider:
(i) the work counsel has done in identifying or
investigating potential claims in the action;
(ii) counsel’s experience in handling class actions,
other complex litigation, and the types of claims
asserted in the action;
(iii) counsel’s knowledge of the applicable law; and
(iv) the resources that counsel will commit to
representing the class;
(b) may consider any other matter pertinent to counsel’s
ability to fairly and adequately represent the interests
of the class;
(c) may order potential class counsel to provide
information on any subject pertinent to the appointment
and to propose terms for attorney’s fees and nontaxable
costs;
(d) may include in the appointing order provisions about
the award of attorney’s fees or nontaxable costs under
Civ.R. 23(G); and

85a
Appendix F
(e) may make further orders in connection with the
appointment.
(2) Standard for appointing class counsel. When one
applicant seeks appointment as class counsel, the court
may appoint that applicant only if the applicant is adequate
under Civ.R. 23(F)(1) and (4). If more than one adequate
applicant seeks appointment, the court shall appoint the
applicant best able to represent the interests of the class.
(3) Interim counsel. The court may designate interim
counsel to act on behalf of a putative class before
determining whether to certify the action as a class action.
(4) Duty of class counsel. Class counsel shall fairly and
adequately represent the interests of the class.
(G) Attorney Fees and Nontaxable Costs. In a certified
class action, the court may award reasonable attorney’s
fees and nontaxable costs that are authorized by law or by
the parties’ agreement. The following procedures apply:
(1) A claim for an award shall be made by motion. Notice of
the motion shall be served on all parties and, for motions
by class counsel, directed to class members in a reasonable
manner.
(2) A class member, or a party from whom payment is
sought, may object to the motion.
(3) The court may hold a hearing and shall state in writing
the findings of fact found separately from the conclusions
of law.

86a
Appendix F
(4) The court may refer issues related to the amount of the
award to a magistrate as provided in Civ.R. 53.
(H) Aggregation of Claims. The claims of the class shall
be aggregated in determining the jurisdiction of the court.

